<html>
<title> - THE RUSSIAN PRESIDENTIAL ELECTIONS</title>
<body><pre>[Senate Hearing 106-702]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-702
 
                   THE RUSSIAN PRESIDENTIAL ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
67-222 CC                    WASHINGTON : 2000




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
LINCOLN D. CHAFEE                    PAUL D. WELLSTONE, Minnesota

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Brzezinski, Hon. Zbigniew, Ph.D., counselor, Center for Strategic 
  and International Studies, and former National Security Advisor    14
Graham, Thomas E., Jr., Ph.D., senior associate, Carnegie 
  Endowment for International Peace, Washington, DC..............    24
    Prepared statement...........................................    28
McFaul, Michael A., Ph.D., senior associate, Carnegie Endowment 
  for International Peace, Washington, DC........................    34
    Prepared statement...........................................    39
Sestanovich, Hon. Steven R., Ambassador-at-Large and Special 
  Advisor to the Secretary of State for the New Independent 
  States, Department of State, Washington, DC....................     3
    Prepared statement...........................................     6
    Responses of Ambassador Sestanovich to additional questions 
      for the record.............................................    10

                                 (iii)




                   THE RUSSIAN PRESIDENTIAL ELECTIONS

                              ----------                              


                       WEDNESDAY, APRIL 12, 2000

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:12 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith (chairman of the subcommittee) presiding.
    Present: Senators Smith and Lugar.
    Senator Smith. Good afternoon, ladies and gentlemen. We 
will call to order this meeting of the Subcommittee on European 
Affairs. Senator Joe Biden is scheduled to be with us, but was 
called to the White House at the last minute and hopes to be 
here before the end of this hearing to participate in it. We 
will welcome him then, but we will proceed now.
    We are meeting to assess the Russian Presidential elections 
held on March 26 and won by now President-elect Vladimir Putin. 
I am pleased to have three panels this morning. Representing 
the administration on our first panel will be Dr. Steven R. 
Sestanovich, Ambassador at Large and Special Advisor to the 
Secretary of State for the New Independent States.
    The second panel will feature the Honorable Dr. Zbigniew 
Brzezinski, a counselor at the Center for Strategic and 
International Studies. Dr. Brzezinski served as President 
Carter's National Security Advisor and has written extensively 
on world affairs, including of course matters concerning 
Russia.
    The third panel will consist of Dr. Thomas E. Graham, Jr., 
and Dr. Michael A. McFaul, both of whom are senior associates 
at the Carnegie Endowment for International Peace. Through 
their public service and scholarly work, both individuals have 
established reputations as being among our country's top Russia 
analysts.
    All of our witnesses are well qualified to address the 
important subject that gathers us here this morning and I 
appreciate their willingness to share with us their views.
    Last month's Presidential election in Russia was an 
important event for those, like myself, who seek to support 
political reform in Russia and foster that country's 
integration into the world's growing community of democracies. 
These elections mark the completion of the first transfer of 
power at the executive level in Russia since the breakup of the 
Soviet Union. They also provide a useful lens through which to 
assess the current direction of Russia's political evolution 
and the coherence of our own policy toward Russia.
    While it is reassuring that international observers found 
the election to have essentially met the procedural 
requirements of a free and fair ballot, many have questioned 
whether we witnessed a democratic transfer of authority or a 
manipulated succession. To many in the West, President Putin's 
rise has been meteoric and puzzling on many levels. The change 
of power from Yeltsin to Putin raised some question as to 
President Yeltsin's motives in his retirement, not the least of 
which included charges of vast corruption.
    Indeed, the themes of the recent Presidential campaign and 
the December 1999 Duma elections brought out some of the worst 
in mudslinging, xenophobia, and authoritarian actions and 
slogans. The role played by the Russian oligarchs in the 
financing and conduct of these elections has been criticized on 
many levels in Russia and overseas. It is my sincere hope that 
the conduct of these elections will not transfer to the 
policies of the party in power.
    Another factor that we cannot avoid discussing today is 
Russia's war in Chechnya, not only because of the actions 
committed by Russian military forces, but also because this was 
such a central theme in Mr. Putin's parliamentary and 
Presidential campaigns. The--I do not know how to put it any 
better--the brutality of the Russian forces in Chechnya has 
prompted many in Congress to call for a significant shift in 
U.S. policy toward Russia.
    Others in the West have made their opposition to the 
Chechen war quite clear. Last week on April 6, the Council of 
Europe took a more than symbolic step to demonstrate its 
opposition to the war against Chechnya. It suspended the voting 
privileges of the Russian delegation. Perhaps the most 
revealing fact of the Council's action is found in the debate 
that preceded it. That debate included an appeal by Sergei 
Kovalyov, one of Russia's leading human rights activists, to 
impose sanctions against his own country.
    One can ask, should we, the United States be siding with 
this gentleman or with Putin? This would be the question we 
might put before our distinguished witnesses today.
    We do well to remember Russia's rejection of communism as a 
sincere and indeed heroic attempt to achieve a lasting 
democracy based on Western values. These values, however, are 
not reflected in the cruel war in Chechnya, in Russia's 
violation of international treaties, including the CFE treaty, 
or its suppression of the press, its mistreatment of religious 
minorities, or its proliferation of weapons of mass destruction 
and missile technologies.
    As a matter of our country's foreign policy, I believe it 
proper to carefully modulate relations with the Russian 
Government according to its conduct both within its borders and 
abroad. That may require introducing stricter political 
direction into the assistance we provide Russia.
    For instance, each year since I joined the Senate I have 
introduced an amendment to the foreign operations 
appropriations bill that would prohibit many forms of direct 
U.S. assistance to the Russian Government should it implement 
laws that would result in the discrimination of minority 
religious faiths. I am pleased to report that this type of 
prompting has had a beneficial impact on the implementation of 
the Russian Law on Religions. Many observers of religious 
freedom have said that the idea of holding discrimination up to 
the bright light of scrutiny has helped the situation in Russia 
for many minority faiths.
    I would like to commend the administration, including 
Ambassador Sestanovich, for his work and dedication in the area 
of religious freedom in Russia. In this same vein, I would 
suggest that the United States might find a way to indicate to 
Russia that their genuine effort to obtain a peaceful 
negotiated solution to the Chechen war would be a good signal 
to send to the world prior to any summit between the United 
States and Russia.
    This is not a call for isolationism. I would balk at knee-
jerk reaction to building barriers instead of breaking them 
down as a tenet of diplomacy. I do believe that engagement 
pursued in the correct manner can underscore our commitment to 
fundamental values and our determination to base our 
relationship with Russia, particularly its political elite, 
upon those values.
    Engagement, however, cannot be blind. We must pursue a 
policy that brings results and progress, that benefit both our 
nations and the world.
    I look forward to discussing these and other issues with 
our distinguished panelists, and we now turn to Ambassador 
Sestanovich. Sir, we are grateful you are back and look forward 
to your testimony.

 STATEMENT OF HON. STEVEN R. SESTANOVICH, AMBASSADOR-AT-LARGE 
   AND SPECIAL ADVISOR TO THE SECRETARY OF STATE FOR THE NEW 
    INDEPENDENT STATES, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Sestanovich. Thank you, Mr. Chairman. I really 
do appreciate the opportunity to discuss the Russian 
Presidential election and explore its implications for American 
policy. Nothing can do more to help us get our Russia policy 
right than regular consultation between Congress and the 
administration, and on one issue that you singled out, that is 
religious liberty, I would like to note that the coordination 
that we have been able to develop has had exactly the 
beneficial effects that you noted.
    Let me begin with the election results, and in particular 
with the headlines, which tell us a great deal about Russian 
politics after Boris Yeltsin. I have six headlines. Let me put 
six headlines out on the table. The first is, of course, the 
election happened. We witnessed a constitutional process with 
multiple candidates, very high turnout.
    Senator Smith. What was the turnout?
    Ambassador Sestanovich. Sixty-nine--your experts are going 
to--they are qualified to come up with that number. I believe 
it is in the high sixties, Senator. Very high turnout and, 
according to most of the observers present, very few procedural 
improprieties.
    I recall the forecast of a very distinguished Russian 
analyst after the 1996 election that the Russian voters would 
never again have a chance to select their President at the 
polls. In the past decade elections have become the only 
legitimate way to select Russia's leaders.
    A second headline is that Russia's voters showed even less 
interest than 4 years ago in returning the Communists to power. 
Mr. Zuganov, the Communist candidate, secured millions of votes 
less this time than in 1996.
    A third headline is that Russian politics remains the 
politics of personality. While rejecting the Communist Party, 
Russian voters did not turn to other parties. They turned to 
Mr. Putin, it seems, because across the ideological spectrum 
voters believed that his views were their views.
    I would frame a fourth headline this way, and it echoes 
some of the points you made, Mr. Chairman. The election 
displayed the strength of Russian democracy, but also its 
weaknesses. Speaking to the press on election night, Mr. Putin 
openly acknowledged that there had not been equal access to the 
media by all candidates. This is a problem that is hardly 
unique to Russia, but it is no less serious for that. The 
emergence of genuinely independent media remains a real 
challenge in the deepening of democracy in Russia.
    The fifth headline would be the signs of voter 
dissatisfaction. Mr. Putin acknowledged that he had had to 
respond--that he would have to respond to the tens of millions 
of Russian voters who were expressing their dissatisfaction 
with their standard of living, their economic prospects. Many 
of his own voters were protest voters, too, and he will have to 
answer to them as well.
    Finally, while the Russian Presidential campaign was very 
weak on substantive debate, one issue did more to define Mr. 
Putin's political profile than any other and that was the war 
in Chechnya. In seeking the Presidency, he said many things 
that we found positive, but no statements on the campaign trail 
spoke as loudly to us or to Russian voters as the military 
campaign in Chechnya.
    Mr. Chairman, we have by now all read many attempts to 
explain who Vladimir Putin really is, but who he is will 
increasingly be defined by what he does. We may learn less by 
digging into his biography than by digging into his in box to 
try to understand the political choices that he faces. No issue 
will loom larger in Mr. Putin's in box than promoting economic 
growth. Polls throughout the campaign indicated this was the 
top issue on voters' minds.
    Consider this. Over 35 percent of Russia's population lives 
on just over one dollar a day. Rising oil prices and import 
substitution have rallied the Russian economy in the past year 
and created a budget surplus for the time being, but that would 
quickly disappear if the price of oil dropped below $20 a 
barrel.
    Sustained growth will require much more structural reform 
and much more capital investment. Mr. Putin has promised quick 
action on the investment legislation, the tax code, production 
sharing agreements. He has every reason to do so.
    An equally large problem in his--in the Russian President's 
in box is crime and corruption. You singled this out yourself, 
Mr. Chairman. Taking on this issue is good politics for Mr. 
Putin since three of four Russians believe that too little 
progress has been made in creating a rule of law. But doing so 
also has real practical significance for him as he begins to 
try to do his job.
    He has said money-laundering will be one of his top 
priorities, and we understand from Russian officials that this 
legislation may be pushed through as early as this month. 
Legislation is also needed to stem corruption and organized 
crime. But new laws alone will not be enough. Much work needs 
to be done to strengthen their enforcement.
    Mr. Putin can hardly ignore a third set of issues in is in 
box, involving security cooperation with the West. In the past 
decade, such cooperative efforts have led to the deactivation 
of thousands of nuclear warheads and improved our security in 
other ways.
    The U.S. and Russia have also been partners in developing 
the foundations of a stronger nonproliferation regime. Russia's 
transfer of dangerous technology and know-how to Iran has not 
been fully turned off, but we have made some progress. We 
believe Mr. Putin and his team understand how this problem can 
undermine our ability to cooperate across the board.
    Strategic arms control is another issue in Mr. Putin's in 
box that has already shown some movement, with the scheduling 
of a Duma vote on START II for this Friday. Ratification of 
START II would move us closer to real negotiations on deeper 
reductions in Russian and American nuclear forces and on 
countering the new threats we face, while preserving the 
security of both sides.
    Mr. Chairman, on economic and security issues alike Mr. 
Putin's in box suggests the many opportunities before us for 
enhanced Russian-American cooperation. You spoke of these. You 
also spoke of the conflict in Chechnya, however, and the long 
shadow that it cast over these opportunities and I completely 
agree with your assessment.
    The numbers from this conflict speak for themselves: a 
quarter of a million people displaced, thousands of innocent 
civilians dead or wounded, thousands of homes destroyed. It 
will take decades and millions, perhaps billions, of dollars to 
rebuild Chechnya.
    Allegations about atrocities by the Russian forces have 
only strengthened the concerns that I raised here last November 
when I appeared before your committee about the Russian 
Government's commitment to human rights and international 
norms. In response to persistent pressure from the United 
States and other Western nations, Russia has agreed to grant 
ICRC access to detainees, has agreed to reestablish the OSCE 
assistance group in Chechnya, and agreed to add Council of 
Europe experts to the staff of Russia's new human rights 
investigator for Chechnya.
    These steps are a start, but they are only a start, and 
speedy follow-on measures are essential. As you know, the U.N. 
Commission on Human Rights in Geneva is seized with the issue 
of Chechnya this week and its deliberations will test whether 
Russia is seriously prepared to respond to international 
concerns.
    We have supported the call of Mary Robinson, the U.N. High 
Commissioner for Human Rights, for an independent Russian 
commission of inquiry into human rights violations in the 
Chechen war, a commission bolstered by the participation of 
experts from international organizations. Such a commission 
could investigate allegations, prepare a public report, and 
refer cases to prosecutors for action. We have urged the 
Russian Government to embrace this proposal and to take 
credible steps showing that it will actually enforce 
international standards of accountability.
    Mr. Chairman, leadership change in Moscow does not by 
itself alter the premises of American policy. We continue to 
see an historic opportunity, as you have suggested, to add to 
our security and that of our allies by reducing cold war 
arsenals, stopping proliferation, building a stable and 
undivided Europe, and, perhaps most important of all, 
supporting the democratic transformation of Russia's political, 
economic, and social institutions.
    As President Clinton has said, a new Russian leader 
committed to those goals and to the international norms on 
which they rest will find in the United States an eager and 
active partner.
    Thank you very much.
    [The prepared statement of Ambassador Sestanovich follows:]

         Prepared Statement of Ambassador Steven R. Sestanovich

               ``RUSSIA'S ELECTIONS AND AMERICAN POLICY''
    Mr. Chairman, I appreciate the opportunity to discuss the Russian 
presidential election with you and your colleagues and to explore its 
implications for American policy. Nothing can do more to help us get 
our Russia policy right than regular consultation between Congress and 
the Administration.
    Let me begin with the election results. Your program today includes 
some of our country's best commentators on post-Communist politics, to 
help you dig beneath the surface of the news. Yet even the headlines 
tell us a great deal about Russian politics after Boris Yeltsin.
    The first headline is, of course, that the election happened. We 
witnessed a constitutional process, with multiple candidates, very high 
turnout, and--according to the many international observers on the 
scene--few procedural improprieties. I recall the confident forecast of 
a distinguished Russian analyst after the 1996 election, that Russian 
voters would never again have the chance to pick their president at the 
polls. In the past decade, elections have become the only legitimate 
way to select Russia's leaders.
    A second headline is that Russian voters showed even less interest 
than they did four years ago in returning the Communists to power. Mr. 
Zyuganov, the Communist standard bearer for the second time in a row, 
received two million fewer votes than he did in the first round in 
1996, and eight million fewer than he did in the second round that same 
year.
    A third headline: Russian politics, at least at the presidential 
level, remains the politics of personality. It revolves around 
individual leaders rather than around programmatic alternatives among 
which the voters choose. While rebuffing the Communist party, Russian 
voters have not transferred their allegiance to other parties. Polls 
indicate that they turned to Mr. Putin because across the ideological 
spectrum voters were confident that his views were their views.
    I would frame a fourth headline this way: The election displayed 
the strength of Russian democracy, but also its weaknesses. One of 
these was highlighted by the Putin camp's misuse of state television, 
to smear other candidates or to keep formidable rivals from entering 
the race. Speaking to the press on election night, Mr. Putin himself 
acknowledged that the opposition did not have equal access to the 
media--a problem that is hardly unique to Russia, but no less serious 
for that. The emergence of genuinely independent media remains a real 
challenge in deepening democracy in Russia.
    Fifth were signs of voter dissatisfaction. Yes, the Communist 
party's appeal is down, but on the day after his victory Mr. Putin 
acknowledged that he had to respond to the tens of millions of Russians 
who, in voting against him, were protesting their standard of living 
and economic prospects. Many of his own supporters, of course, were 
protest voters too, and he will need to answer to them as well.
    Finally, while the Russian presidential campaign was conspicuously 
weak on substantive debate, one issue did more than any other to define 
Mr. Putin's political profile, and that was the war in Chechnya. In 
seeking the presidency he said many things that sounded positive to 
Western ears--from his conciliatory remarks about NATO to his hints 
about how he would approach economic reform. But no statements on the 
campaign trail spoke as loudly as the Russian military campaign in 
Chechnya.
    Mr. Chairman, we have by now all read many attempts to explain who 
Vladimir Putin really is. It can make for fascinating reading, but as a 
guide to his future actions it's probably a vain effort. We may learn 
who Mr. Putin has been, but who he is--and what place he will have in 
Russia's historic transition--will increasingly be defined by what he 
does. We may learn less by digging into his biography than by digging 
into his inbox, to try to understand the political choices that he 
faces.
    No issue is likely to bulk larger in Mr. Putin's in-box than 
promoting economic growth. Polls throughout the campaign indicated that 
this was the top issue on voters' minds, and given the conditions in 
which Russians find themselves today it could hardly have been 
otherwise. Consider this: over 35% of Russia's population lives on just 
over one dollar a day. Rising oil prices and import substitution have 
rallied the Russian economy in the past year, and created a budget 
surplus, but it would quickly disappear if the price of oil dropped 
below $20 a barrel. Sustained growth will require much more structural 
reform and much more capital investment. To improve its investment 
climate, the new Russian government is going to have to fix its tax 
laws and banking system. Mr. Putin has promised quick action on 
investment legislation, the tax code and production-sharing agreements. 
He has every reason to do so.
    An equally big problem in the Russian president's in-box is crime 
and corruption. Taking on this issue is good politics, since three of 
four Russians believe that too little progress has been made toward 
achieving the rule of law. But doing so also has real practical 
significance for a new president who wants to do his job. His ability 
to get things done, to get the bureaucracy to respond to his 
directives, depends on choking off corruption among officials at all 
levels. Mr. Putin has said new money laundering legislation will be one 
of his top priorities. Legislation is also needed to stem corruption 
and organized crime, but new laws alone will not be enough. Much work 
needs to be done to strengthen their enforcement.
    Mr. Putin can hardly ignore a third set of issues in his in-box, 
involving security cooperation with the West. In the past decade such 
cooperative efforts have led to the deactivation of almost 5,000 
nuclear warheads in the former Soviet Union, improved security of 
nuclear weapons and materials at more than 50 sites, and permitted the 
purchase of more than 60 tons of highly enriched uranium that could 
have been used by terrorists or outlaw states. Today, that cooperation 
continues. Our Expanded Threat Reduction Initiative will help Russia 
tighten export controls, improve security over its existing weapons of 
mass destruction, and help thousands of former Soviet weapons 
scientists to participate in peaceful research projects with commercial 
applications.
    The U.S. and Russia have also been partners in developing the 
foundations of a stronger non-proliferation regime. Russia's transfer 
of dangerous technology and know-how to Iran has not been fully turned 
off, but we have made some progress. We believe Mr. Putin and his team 
understand how this problem can undermine our ability to cooperate 
across the board.
    Strategic arms control is one issue in Mr. Putin's in-box that has 
already shown movement, with the scheduling of a Duma vote on START II 
for this Friday. Since last summer's G-8 summit in Cologne, we have 
held discussions with the Russians on START III reductions and changes 
in the ABM Treaty. Ratification of START II would move us closer to 
real negotiations, on deeper reductions in Russian and American nuclear 
forces and on countering the new threats we face while preserving the 
security of both sides.
    Mr. Chairman, on economic and security issues alike, Mr. Putin's 
in-box suggests the many opportunities before us for enhanced Russian-
American cooperation. The conflict in Chechnya, however, casts a long 
shadow over these opportunities. When I appeared before this committee 
on November 4, I said that we did not dispute Russia's right to combat 
a terrorist insurgency, but that we could not let this fact blind us to 
the human cost of the conflict. Today the numbers speak for themselves: 
a quarter of a million people displaced, thousands of innocent 
civilians dead or wounded, and thousands of homes destroyed. It will 
take decades and millions of dollars to rebuild Chechnya.
    Allegations about atrocities by Russian forces have only 
strengthened the concerns that I raised here last November about the 
Russian Government's commitment to human rights and international 
norms. In response to persistent pressure from the U.S. and other 
western nations, Russia has agreed to grant ICRC access to detainees, 
agreed to reestablish an OSCE Assistance Group in Chechnya and agreed 
to add Council of Europe experts to the staff of Russia's new human 
rights ombudsman for Chechnya.
    These steps are a start, but only a start, and speedy follow-on 
measures are essential. The UN Commission on Human Rights is seized 
with the issue of Chechnya this week, and its deliberations will test 
whether Russia is prepared to respond to international concerns. The 
U.S. has supported High Commissioner for Human Rights Mary Robinson's 
call for an independent Russian commission of inquiry into human rights 
violations, bolstered by the participation of experts from 
international organizations. Such a commission could investigate 
allegations, prepare a public report and refer cases to prosecutors for 
action. We have urged the Russian government to embrace this proposal, 
and take credible steps showing that it will actually enforce 
international standards of accountability.
    Mr. Chairman, leadership change in Moscow does not alter the 
premises of American policy. We continue to see an historic opportunity 
to add to our security, and that of our allies, by reducing Cold War 
arsenals, stopping proliferation, building a stable and undivided 
Europe, and supporting the democratic transformation of Russia's 
political, economic, and social institutions. As President Clinton has 
said, a new Russian leader committed to these goals, and to the 
international norms on which they rest, will find in the United States 
an eager and active partner.

    Senator Smith. Mr. Ambassador, do we know whether the 
bombing of these apartment buildings in Moscow, if those were 
Chechens? Is there any proof that there is the linkage that is 
asserted in the media?
    Ambassador Sestanovich. There has been a Russian 
investigation of this over many months. There have been from 
time to time press conferences by Russian officials detailing 
some pieces of evidence and referring to suspects. But I think 
we cannot say that an investigative case has been made 
establishing who was responsible for those bombings.
    They are widely, as you now, widely assumed in Russia to 
have been the work of Chechen organizations.
    Senator Smith. Is that an unreasonable assumption?
    Ambassador Sestanovich. They followed a military 
confrontation between Russian forces and Chechen forces in 
Dagestan, a confrontation in which the Chechen forces were 
beaten back and, having suffered a serious defeat, they are 
thought by many Russians to have retaliated through terrorist 
bombings. But that is only a--that is a connection, that is the 
most we can say about it at this time.
    Senator Smith. Well, we do not dispute their right to 
combat terrorism. That does not justify what has been done in 
Chechnya.
    Ambassador Sestanovich. We have made that very clear, 
Senator.
    Senator Smith. As I look to the future with Russia, I have 
lots of hope and I have lots of misgivings. The way this 
election campaign was conducted, when the government controls 
the media there are people shut out of the process. That has 
always been one of my concerns with proposals in our own 
country, frankly, when the government begins to regulate who 
gets to speak, who gets on TV.
    I am not even suggesting there is any comparability, but I 
have real concern that I have with the fairness of this 
election and what was done and the ability of others to 
respond. But you are saying here that Mr. Putin even admitted 
as much on election night.
    Ambassador Sestanovich. He certainly did acknowledge that 
other candidates had disadvantages in their access to the 
media.
    Just for clarification, Mr. Chairman, I think it is 
probably too strong to say the government controls the media. 
There is in fact a very diverse media establishment in Russia 
involving thousands of independent newspapers and hundreds of 
independent television stations. They are heavily politicized 
and their ownership often dictates their political line.
    The special concern that I think is created with respect to 
the role of the media in this election had to do with the role 
of state television, which as I said is not the only television 
network available for Russian viewers, but it is by far the 
most widespread and clearly highly influential. That state 
media was clearly used in a highly politicized way in this 
election.
    But we and the Russians are lucky that in many ways the 
elements of a free media actually exist. That is why one can 
read in the Russian media the most extreme criticisms of Mr. 
Putin himself.
    Senator Smith. I note his first foreign trips will be to 
Belarus and the Ukraine, and I am wondering if you can speak to 
what you think that says about their foreign policy and what 
the relationships are now between those countries and Russia.
    Ambassador Sestanovich. I believe those are stops on the 
way to London.
    Senator Smith. OK.
    Ambassador Sestanovich. So there are three visits, and let 
me comment on all of them. Relations with Belarus are those of, 
as they say, kind of a nascent union, a kind of paper union at 
least, between Russia and Belarus, one which does not, I might 
note, prevent disagreements between them. Mr. Putin is reported 
in the Russian media to have called President Lukashenko to 
demand the release of Russian journalists who had been 
mistreated in Belarus.
    Ukraine is an interesting case because it is perhaps--
certainly one of the most important of the former Soviet 
states, one which has very effectively created independence 
over the past decade, and yet many Ukrainians wonder whether 
they will be able to maintain that independence into the 
future.
    Mr. Putin has indicated an interest in close relations with 
Ukraine and I am sure he is going to be pursuing those 
relations when he is in Kiev. Some Ukrainians have, however, 
complained about their dependence on Russian energy and the 
possibility of manipulation of Russian--use of that lever by 
Russia to influence Ukrainian policy.
    Senator Smith. Talk to me about the Ex-Im loan that the 
Secretary of State authorized, $500 million to Tyumen Oil 
Company? This company is reportedly partly owned by the Alfa 
Group, which in turn is controlled by Pyotr Aven, one of the 
so-called oligarchs competing for influence in the Kremlin. I 
am wondering if Chechnya had any bearing on this? Should it not 
have been a reason to hold back, at least in terms of timing?
    Ambassador Sestanovich. Mr. Chairman, as you will recall, 
in December Secretary Albright invoked the Chafee amendment to 
hold up the disbursement or action on this loan by the Ex-Im 
Bank, citing a number of concerns that she had having to do in 
particular with the protection of shareholder rights and the 
rights of foreign investors, especially American investors, in 
this deal.
    In the interim, a number of these concerns have been 
addressed. The Russian parties have been under some pressure to 
negotiate the concerns, negotiate with American investors on 
the concerns that they have had, and we have seen some movement 
toward the resolution of this problem. On that basis, the 
Secretary announced that she was removing her hold because we 
felt that her action had served--she felt that her action had 
served the purpose that she intended, which was to advance the 
rule of law and to protect American businesses.
    We did not link that issue to the Chechen war. I can tell 
you from personal experience that every Russian official I have 
talked to believes that we did and that those months of delay 
were the result of our political disapproval of the Chechen 
war. The Secretary's judgment was that the time had come to 
recognize that the purposes she had wanted to serve by invoking 
the amendment had been served.
    Senator Smith. You are probably aware that Senator Biden 
and I and 96 other Senators sent a letter to President Putin 
regarding anti-semitism. I was both surprised and pleased at 
his very prompt response to that in condemning anti-semitism, 
and I am wondering because this seemed a different response 
than earlier efforts. I wonder if you have any opinion as to 
what prompted this prompt and favorable response?
    Ambassador Sestanovich. I think under President Yeltsin and 
now under President Putin the President of Russia has 
consistently been responsive to concerns raised by American 
officials, Members of the Senate and the administration, about 
religious freedom in Russia and about anti-semitism in 
particular. President Yeltsin frequently made strong statements 
in this connection and President Putin's statement and the 
letter of Ambassador Ushakov to you reflects that position.
    Our concerns--and I know you share these, Senator--have to 
do less with the position of the Russian President and more 
with the trends that we see in society at large and sometimes 
in the protection of religious liberty in localities, where the 
constitutional protections that religious minorities should 
have are not always enforced. But we continue to pay very close 
attention to that issue, and I certainly believe that the kind 
of interest that you have taken in this, you and your 
colleagues have taken in this issue, helps to call it to the 
attention of Russian leaders and to get results.
    Senator Smith. I am hopeful, I am optimistic, about issues 
of religious freedom with Mr. Putin's election. I assume you 
share that optimism?
    Ambassador Sestanovich. I think he has said the right 
things on this subject. The issue, as it has been in the past, 
will be enforcement of constitutional protections at all levels 
and we will continue to work on that.
    Senator Smith. Thank you very much, Mr. Ambassador. Good to 
see you again.
    Ambassador Sestanovich. Thank you, Mr. Chairman.
    Senator Smith. We are grateful for your testimony and 
participation before this committee.
    [Responses to additional questions for the record follow:]

 Responses of Ambassador Steven R. Sestanovich to Additional Questions 
                             for the Record

    Question 1. When discussing the war in Chechnya, you stated that 
the United States government ``did not dispute Russia's right to combat 
a terrorist insurgency.'' Please enumerate the specific acts of 
terrorism that have occurred in Russia that justify any use of force by 
the Government of the Russian Federation in or against Chechnya and why 
they do so.

    Answer. On August 8, 1999, armed insurgent groups from Chechnya 
entered the neighboring Russian Federation Republic of Dagestan with 
the declared intent of creating a pan-Caucasus Islamic state separate 
from the Russian Federation.
    These groups, led by a self-ascribed Chechen field commander Shamil 
Basayev and an Arab mujahedin who uses the nom de guerre ``Khattab,'' 
attacked Russian police and military installations and took control of 
several towns in western Dagestan.
    Russian authorities continue to investigate a series of deadly 
explosions which took place in early September 1999. Although they have 
not presented evidence that proves Chechen separatists are responsible 
for these explosions, Russian authorities have linked Chechen groups to 
these terrorist acts.
    The Russian authorities faced--and still face--a very real threat 
in Chechnya. The violent secessionism and extremism of Chechen rebels, 
coupled with provocations in Dagestan and elsewhere were legitimate 
security concerns.
    But none of that begins to justify the Russian government's 
decision to use massive force against civilians inside Chechnya.
    Russia should take action against real terrorists, but not use 
military force that endangers innocents or intensifies the conflict in 
Chechnya. Russia should step up measures to prevent further terrorist 
bombings, but should be careful not to make people from the Caucasus 
second-class citizens, or in any other way trample on human rights or 
civil liberties.

    Question 2. In discussing the war in Chechnya, Secretary Albright 
recently stated that she has ``consistently called on the Russian 
government to enter a substantive dialogue with legitimate leaders in 
the region to seek a long-term political resolution to this conflict.'' 
Do you regard Aslan Maskhadov, the democratically elected president of 
Chechnya, to be a legitimate leader? If you do not regard him to be a 
legitimate leader, why not? If you do regard him to be a legitimate 
leader, have you encouraged the Russian government to enter a 
substantive dialogue with him specifically? If you have not, why not?

    Answer. We remain convinced that in order to achieve a lasting 
political resolution to the conflict in Chechnya, Russia must enter 
into substantive dialogue with local leaders who have a legitimate 
claim to authority. But we recognize that the actions of prominent 
Chechens has made identifying suitable partners for dialogue more 
difficult.
    On January 27, 1997 Aslan Maskhadov was elected President of the 
Russian Federation's Republic of Chechnya in elections that OSCE judged 
to represent the will of the voters.
    In the first two years of his presidency, both Russia and the 
international community at large engaged in intense discussions with 
Maskhadov to urge him to establish democratic institutions which would 
provide for law and order and bring a halt to the scourge of hostage-
taking which limited the delivery of much-needed assistance. Maskhadov 
traveled twice to the U.S.; we met with him at the Department of State, 
as we would with any leader of one of Russia's regions.
    But Maskhadov proved unable or unwilling to curtail the growing 
power of outlaw groups in Chechnya. As a result, armed outlaw groups 
were able to carry out the insurgent raids on the neighboring Russian 
Federation Republic of Dagestan. Maskhadov blames the Russian ``special 
services'' for their actions to diminish his authority and criticizes 
the Russian government for not carrying out reparations and 
reconstruction as agreed.
    In 1999, Maskhadov's anti-democratic actions (such as his dismissal 
of the parliament and formation of an Islamic Council) and his refusal 
to condemn the insurgent raid into Dagestan led Moscow to discount him 
as a potential partner for discussions.
    It is up to the Russian authorities to identify partners for 
discussion in Chechnya. We believe the OSCE Assistance Group can play a 
facilitating role in such discussions. We are encouraged by recent 
indications that Moscow may be again considering dialogue with 
Maskhadov, or moving toward talks with other Chechen figures.

    Question 3. What Chechen leaders must be involved in a political 
dialogue with Russia that could lead to an enduring and just peace in 
Chechnya?

    Answer. We remain convinced that in order to achieve a political 
resolution to the conflict in Chechnya, Russia must engage in a 
dialogue with local leaders who have a legitimate claim to authority.
    Actions taken by some elected Chechen leaders have made it 
difficult for Russian authorities to engage them in dialogue. But for a 
lasting resolution, leaders who have the support of the people of 
Chechnya--as expressed in a democratic process--must be a part of the 
discussion.
    We welcomed the recent visit to Chechnya by the OSCE's Office for 
Democratic Institutions and Human Rights; we believe the OSCE may be 
able to assist in building local-level democratic institutions and, 
when appropriate, in supervising elections so the people of Chechnya 
can choose who will represent their views in discussion with the 
Russian Federal authorities.

    Question 4. To protest the conduct of Russian forces in Chechnya, 
the Council of Europe Parliamentary Assembly recently suspended the 
voting rights of its Russian delegation. The Department of State stated 
that it ``understands'' the Assembly's decision, but refuses to endorse 
it. What are the specific reasons why the Department of State will not 
endorse the Assembly's action?

    Answer. When Russia voluntarily joined the Council of Europe, it 
undertook specific commitments to respect human rights. This gives the 
COE an important role to play in the Chechnya conflict.
    One of Russia's moves to meet the concerns of the international 
community over Chechnya was to invite two COE human rights experts to 
join in the work of the Russian Human Rights Ombudsman for Chechnya. 
Russia demonstrated the high regard with which it holds the Council of 
Europe by accepting these experts even after the decision of the 
Parliamentary Assembly to suspend the Russian delegation.
    We believe that the international community can best impact the 
situation in Chechnya by continuing to engage Russia over its concerns. 
The Council of Europe continues to play an important role in this 
process.
    The United States holds Observer status within both the inter-
governmental and legislative components of the Council of Europe. The 
COE has on several occasions invited representatives from the U.S. 
Congress to participate as Observers in Parliamentary Assembly 
deliberations. The Department will continue its dialogue on Chechnya 
with European governments, and would welcome similar dialogue at the 
legislative level between the U.S. Congress and European parliamentary 
institutions.
    We note that the Parliamentary Assembly's recommendations on 
Chechnya have been passed to the Council of Europe's Committee of 
Ministers, comprised of COE member state governments, for further 
deliberation. It is the Committee of Ministers' responsibility to 
decide what, if any, action European governments will take based on the 
Assembly's recommendations.

    Question 5. Will you personally make the commitment that United 
States will not discourage any member of the Council of Europe's 
Committee of Ministers from endorsing the COE Parliamentary Assembly 
call ``to suspend Russia's membership if it does not initiate a cease-
fire and engage in a political dialogue with a cross section of the 
Chechen people?''

    Answer. We share the objectives of the Council of Europe and have 
urged Russia from the beginning of the conflict to end military action 
in Chechnya and initiate a meaningful dialogue with legitimate Chechen 
leaders.
    The United States has observer status in the Council of Europe, and 
thus cannot vote on issues before the Council of Europe's Committee of 
Ministers. COE member states will decide for themselves what action, if 
any, to take on the Parliamentary Assembly's recommendations. We note, 
in this context, that Russia is a member of the Committee of Ministers 
and will participate actively in any deliberations that take place in 
that forum.
    We are in frequent contact with European governments on issues 
related to Chechnya and will continue to share our views about how best 
to encourage Russia to uphold its commitments to the international 
community and bring about a peaceful resolution to the conflict in 
Chechnya.

    Question 6. Has the United States provided the Russian Federation 
any satellite or other photographs, any equipment, any information, or 
any counter-terrorism assistance that Russia has used or could use in 
the war against Chechnya? If so, please specify exactly what has been 
provided to Russia and the terms under which this occurred. If Russia 
has violated those terms, please specify. (If necessary, please use a 
classified annex.)

    Answer. The United States and Russia cooperate bilaterally and 
multilaterally, through such organizations as the G-8, on counter-
terrorism.
    The United States has engaged with Russia in counter-terrorism 
information sharing including analysis of Usama Bin Laden-related 
terrorists.
    The U.S. Department of State has not provided Russia any specific 
equipment or counter-terrorism assistance and/or training that is 
intended for use in the war in Chechnya.
    Our assistance is provided for specific purposes. Some equipment 
and/or training assistance might be considered ``dual-use;'' however, 
we consistently exercise the rights and protections afforded U.S. 
assistance under international agreements with Russia, to ensure that 
no U.S. assistance goes to support Russian efforts in Chechnya.
    As we recently reported to Congress, we will direct agencies to 
take all the necessary steps to ensure that none of our assistance 
benefits Russian military units credibly reported to be engaged in 
combat operations in the Northern Caucasus.
    I refer you to other agencies for details of their counter-
terrorism programs.

    Question 7. Has the situation in Russia for journalists, 
particularly those trying to report objectively on the war in Chechnya, 
improved since last January? If not, what steps has or will the 
Administration take to promote freedom of the press in Russia?

    Answer. We are concerned about any potential threat to the 
considerable progress Russia has made in the area of press freedom. The 
Russian people need a free press to continue the unfinished job of 
building a democratic society. These concerns have been highlighted by 
restrictions on press coverage of the conflict in Chechnya and media 
manipulation during the election campaign.
    We have raised the issue of press freedom directly with President 
elect Putin and other senior officials. For example, on her February 
visit to Moscow, Under Secretary Lieberman delivered a blunt message to 
the Russian Minister of Press and Television Mikhail Lesin. She 
stressed that we do not want to see achievements in advancing in press 
freedom over the past eight years reversed.
    Similarly, we continue to press Russian authorities to resolve 
fairly the case of Radio Liberty journalist Andrei Babitsky in a manner 
consistent with freedom of the press and investigate the circumstances 
surrounding his detention and disappearance. Embassy Moscow has met 
with Mr. Babitsky and will continue to monitor his case closely.
    The other aspect of press freedom that we are focusing on is the 
concentration of ownership of media outlets. We have funded programs 
that have helped support the development of 15,000 independent 
newspapers and 300 independent television stations. Support of 
independent media outlets will continue to be a key aspect of our 
Freedom Support Act programs.
    President-elect Putin said in a nationally televised interview in 
February that he was ``deeply convinced that we absolutely cannot have 
any development at all and the country will have no future if we 
suppress civic freedoms and the press.'' We agree with that statement.
    Journalists in Russia must be able to do their work without 
unnecessary constraints, and we will continue to monitor and support 
freedom of the press in Russia.

    Question 8. What is the net worth of commercial contracts approved 
by the United States Government concerning satellite launches services 
involving Russian and American entities since the beginning of this 
cooperation? Since September 1999?

    Answer. It should be noted that the Department of State's Office of 
Defense Trade Control (DTC) database captures values that have been 
provided as actual or estimated; such is the requirement of under 22 
CFR 124.12(a)(6). However, estimates are not accepted over $50 million 
as such cases must be notified to Congress and thus must have a signed 
contract. It should also be noted that the DTC database does not 
readily capture the individual foreign licensees.
    The following show the principal satellite launch programs to date 
involving Russia:




LKEI Proton Launch Services...........................    $4,500,000,000
Sea Launch............................................    $1,500,000,000
RD-180 Engine for Atlas...............................    $1,300,000,000
Leo One Satellite on Eurokot Proton Launch Vehicle....      $124,200,000
QuickBird-1/-2 Launch on SL-8.........................       $80,425,000
Misc. Launch Support and Cooperation\1\...............      $267,642,000
                                                       -----------------
    Total.............................................    $7,772,267,000


\1\ (Includes programs such as Hall Thruster technology cooperation.)


    The estimated net worth of commercial contracts approved by the 
United States Government concerning satellite launches services 
involving Russian and American entities since September 1999 is 
$2,563,545,000.

    Question 9. Please provide a list of American firms and Russian 
governmental or commercial entities that are engaged in U.S.-Russian 
satellite launch services and the estimated values of their contracts. 
(If necessary to protect legitimate proprietary interests, please use a 
classified annex.)

    Answer. The following is a compilation of information drawn from 
the files of the Department of State's Office of Defense Trade Controls 
and information solicited from the Federal Aviation Administration. The 
following U.S. companies are engaged in selling launch services aboard 
Russian launch vehicles or Ukrainian launch vehicles using major 
Russian components. The values are estimates of their commercial 
contracts:




LKEI Proton Launch Services...........................    $4,500,000,000
  (Lockheed Martin/Khrunichev/Energia)
Sea Launch Zenit-3SL..................................    $1,500,000,000
  (Boeing/Energia/Yuzhnoye/Kvaerner)
RD-180 Engine for Atlas...............................    $1,300,000,000
  (Lockheed Martin/United Technologies/Energomash)
Assured Space Access (Kosmos-3M and Start-1)..........       $20,500,000
Thiokol (Dnepr).......................................             (\1\)
                                                       -----------------
    Total.............................................    $7,320,500,000


\1\ No launches sold/no revenue.


    Question 10. What are the relationships between the Tyumen Oil 
Company, the Alfa Group, Pyotr Aven, and Mikhail Fridman? Are the Alfa 
Group, Pyotr Aven, and Mikhail Fridman in positions that would enable 
them to benefit from the $500 million in EXIM Bank loans to Tyumen Oil 
Company recently approved by Secretary Albright?

    Answer. The Secretary had placed a hold on Ex-Im's approval of the 
loan guarantees until we could investigate some serious allegations 
concerning abuse of investor rights by Tyumen Oil in a bankruptcy case. 
After she determined that it was appropriate to allow Ex-Im to proceed 
with its consideration of the loan guarantees, Ex-Im's board approved 
financing for the two transactions.
    Aven and Fridman are major shareholders in Alfa Group, a Russian 
holding company which owns the controlling shares in Tyumen Oil Company 
(TNK). Aven, Fridman and Alfa Group stand to benefit if the capital 
improvements to the Tyumen's refinery at Ryazan and to the Samotlor oil 
field, financed by loans guaranteed by Ex-Im Bank, increase production 
and sales of crude oil and refined products by TNK. No funds guaranteed 
by Ex-Im go directly to Aven, Fridman, Alfa Group or TNK; rather, the 
funds are paid by the lenders to the U.S.-based suppliers of the $500 
million in equipment purchased by TNK. The U.S. operations of those 
suppliers (Halliburton, Inc. and ABB, Inc.), and their employees, will 
benefit from the increased sales supported by the Ex-Im guarantees.

    Question 11. What is the relationship between Pyotr Aven and 
Russian President-elect Vladimir Putin? Did Pyotr Aven play any direct 
or indirect role in Putin's recent campaign for the Russian presidency?

    Answer. According to Russian press reports, Aven and President 
Putin have known each other since the early 1990's and have met since 
Putin became acting President. Aven's Alfa Group has reportedly 
supplied several staff members for the Presidential administration. 
Alfa Group is also reported to have made financial contributions to 
President Putin's election campaign.

    Question 12. What is the relationship between Mikhail Fridman and 
Russian President-elect Vladimir Putin? Did Mikhail Fridman play any 
direct or indirect role in Putin's recent campaign for the Russian 
presidency?

    Answer. Like Pyotr Aven, Fridman is a major shareholder in the 
Russian holding company Alfa Group. According to Russian press 
accounts, Aven's Alfa Group has supplied several staff members for the 
Presidential administration. Alfa Group is also reported to have made 
financial contributions to President Putin's election campaign.

    Senator Smith. We are now honored to have Dr. Zbigniew 
Brzezinski with us. He is no stranger to this room and this 
committee. We invite him to come to the table and share with us 
his very able perspective. Doctor, welcome. It is good to see 
you, sir.

STATEMENT OF HON. ZBIGNIEW BRZEZINSKI, PH.D., COUNSELOR, CENTER 
 FOR STRATEGIC AND INTERNATIONAL STUDIES, AND FORMER NATIONAL 
                        SECURITY ADVISOR

    Dr. Brzezinski. Mr. Chairman, it is nice to see you. It is 
nice to see some familiar faces behind you as well.
    Senator Smith. Yes indeed.
    Dr. Brzezinski. Let me reach for my opening comments, if I 
may.
    Senator Smith. Please do.
    Dr. Brzezinski. Thank you for the opportunity to appear 
before you and to discuss American-Russian relations. Perhaps 
an appropriate way to begin is to pose the question: Is 
democracy in Russia now more secure and more respected than was 
the case earlier in this decade? Is the free enterprise system 
more pervasive and more accepted?
    Unfortunately, the answer has to be ``no.'' The sad fact is 
that several years have been wasted, with the notions of 
democracy, the free market, and partnership with America now in 
disrepute in the minds of many Russians. A great deal of 
responsibility for this deterioration is due, I am sorry to 
say, to the naivete, incompetence, and self-deception with 
which the administration has handled U.S. policy toward Russia.
    The administration has been naive in prematurely claiming 
years ago that President Yeltsin was a truly democratic 
President of an established Russian democracy.
    Moreover, the administration was incompetent in its 
indiscriminate transfer of financial assistance to Russia 
without adequate supervision, while declaring Russia to be 
already an effectively privatized free-market economy. All of 
this facilitated the emergence of a pervasively corrupt 
economic system--one that enriched the few and impoverished the 
many in Russia.
    Furthermore, the administration has been cynical in its 
disregard of Russian transgressions, most notably in Chechnya. 
Five years ago during the first Chechnya war, the 
administration uncritically accepted the Russian story that the 
issue at stake was the preservation of the Russian union. In 
the current war, the administration has bought hook, line, and 
sinker the Russian notion that the conflict is about terrorism.
    In short, by making the pursuit of good relations an end in 
itself, the administration failed to encourage positive change 
and to discourage negative conduct.
    As President Putin consolidates his power, there is little 
evidence that the administration has drawn any lessons from its 
past failures. A case in point is the testimony offered a week 
ago to the Senate by Deputy Secretary of State Strobe Talbott. 
In it, he hailed, without any qualification whatsoever, ``the 
completion of Russia's first democratic transfer of power at 
the executive level in its 1,000-year history.'' That so-called 
democratic transfer of power was effected by a palace coup that 
produced Yeltsin's abrupt resignation, the forward shifting of 
the date of the national elections, and the creation of a de 
facto plebiscite on behalf of the acting President, who in the 
mean time appealed to the public with highly nationalistic and 
demagogic slogans, exploiting ethnic and racial prejudice 
against the Chechens. None of that was noted by the Deputy 
Secretary.
    That is not all. The Deputy Secretary acknowledges that we 
know very little about President Putin, but goes on to say the 
following: ``Here is what we do know. Mr. Putin has affirmed 
his support for Russia's constitution and its guarantee of 
democratic government and basic freedoms for Russia's people. 
He has declared himself a proponent of a competitive market 
economy. He has promised quick action on tax reform and 
investment legislation. He told Secretary Albright, when she 
spent 3 hours with him on February 2, that he sees Russia as 
part of Europe and the West, that he favors Russia's 
integration with the global economy, that he wants to continue 
the process of arms control and U.S.-Russian cooperation on 
nonproliferation.''
    According to Talbott, that is all we know. The truth is we 
know much more than that. We know, for example that Mr. Putin 
spent 15 years of his life working for the KGB, the agency that 
specialized in the suppression of dissidents and in espionage 
against the West. We know Mr. Putin's proclaimed admiration for 
Mr. Andropov, one of the more ruthless leaders of the KGB. We 
have heard his public salute of KGB-NKVD traditions, his blood-
curdling demagogy regarding the liquidation of the Chechens, 
and his very direct appeals to Russian nationalism and big 
power ambitions.
    Nor should we ignore his reliance on the military and the 
KGB as the principal instruments of Russia's state power, nor 
his efforts to intimidate the mass media. Surely, these factors 
are also relevant to any assessment of Mr. Putin's likely 
conduct.
    Administration spokesmen have repeatedly stated that Russia 
is isolating itself by its conduct in Chechnya. Yet the fact is 
that the administration has done absolutely nothing to make 
that allegation stick. Quite the contrary, the administration 
has gone out of its way to fraternize on a personal level with 
senior Russian officials, even as heads of government of the 
newly independent post-Soviet republics have found it difficult 
to gain top-level access to administration officials.
    What is equally troubling is the fact that some of Russia's 
immediate and most affected neighbors, such as the Presidents 
of Ukraine, Georgia, Azerbaijan, and Estonia, have been 
perplexed by the United States' disregard for the longer term 
effects on Russian foreign policy of Moscow's reliance on 
indiscriminate force in coping with Chechnya.
    Moreover, it is tragically the case that the 
administration's indifference to what has been happening in 
Chechnya has probably contributed to the scale of the genocide 
inflicted on the Chechens. The Kremlin paused several times in 
the course of its military campaign in order to gauge the 
reactions of the West. Yet all they heard from the President 
were the words ``I have no sympathy for the Chechen rebels,'' 
which the Russians construed as a green light for their 
ruthless policy. The President in effect even endorsed their 
efforts ``to liberate Grozny.''
    I fear that the administration's one-sided approach 
reflects not only continued misreading of the Russian 
situation, but above all, a politically driven desire to strike 
some sort of a spectacular agreement with the Russians 
regarding ratification of START and some compromise regarding 
the ABM Treaty, thereby enabling the administration to claim 
that it has obtained a green light from Russia for the 
deployment of the planned national missile defense system.
    It is therefore not surprising to me that Deputy Secretary 
Talbott's testimony evoked strong bipartisan criticism. In his 
response to Mr. Talbott, Senator Leahy, a Democrat, stated 
bluntly that: ``As far as I am aware, the administration has 
yet to call the atrocities by Russian soldiers in Chechnya what 
they are--war crimes. There should be no ambiguity about that, 
and I am afraid that failure to do so has damaged our 
credibility. And the administration recently cleared the way 
for a $500 million Export-Import Bank loan to a Russian oil 
company. World Bank loans have also been made. We need to ask 
why we are providing this kind of aid when Russia seems to have 
enough money in the bank to wage a brutal military campaign.''
    Senator McConnell was even more scathing in his criticism 
of Mr. Talbott's testimony:
    ``It is noteworthy, Mr. Chairman, that the European 
reaction to what has been happening has been more forthright. 
The Council of Europe has recently suspended Russia's voting 
rights. The French Foreign and Finance Ministers have recently 
proposed a more critical and strategically guided re-
examination of the way aid is given to Russia.''
    I hope the administration, even belatedly, draws the 
necessary lessons from these developments. Ultimately, the 
issue is not whether we should be engaged with Russia, for the 
obvious answer to that is ``yes.'' The issue, however, is how 
we should be engaged with Russia, and here the ability to 
discriminate is the essential precondition of any effective 
policy.
    The goal that we should be pursuing is the inclusion of 
Russia in a wider Atlantic-European community, based on the 
same values and mutually respected rules of civilized behavior. 
That historic goal will not be achieved if egregious instances 
of the Kremlin's international misconduct are condoned or if 
its domestic political regression is blithely ignored.
    Thank you, Mr. Chairman.
    Senator Smith. Dr. Brzezinski, you have been an observer of 
Russia for many, many years and I wonder if, even as bad as it 
is as you describe it in your testimony, is there any room--is 
there any reason we should be optimistic that it is better than 
it was in the Soviet Union, that there is reason that it can be 
better still, given the personnel in place?
    Dr. Brzezinski. Absolutely. I am a long-term optimist. I 
am, however, a short-term pessimist. I think in the near term 
we are seeing the emergence of a generation which perhaps can 
be described with the words once applied by an American author 
to the U.S. leadership in the sixties: ``the best and the 
brightest.''
    The best and the brightest in Russia in the late seventies 
and in the eighties tended to gravitate to the KGB. They were 
not true believers, they were cynics. They knew that the 
ideology was finished. They had a good idea that the West was 
doing much better than Russia. They had a sense of the internal 
stagnation. They had a desire for reform. They also enjoyed 
power and status and privilege. That is what they would like to 
restore to Russia today.
    I think Mr. Putin is the quintessential product of that 
generation. Behind them, however, I think there is surfacing a 
younger group still--who will come to power probably within a 
decade or so--that realizes that the notion of recreating 
Russia as a global superpower with a strategically dominated 
space of its own--reflecting largely the space of the former 
Soviet Union--is unattainable, and that Russia has no choice 
but to fully opt for partnership with and membership in the 
West.
    So in the long run I am an optimist. I think the trend is 
positive. But I think we cannot ignore a short-term regression 
and we should be particularly careful not to condone patterns 
of behavior that it might prove tempting for the Russian elite 
to repeat elsewhere.
    This is why I put so much emphasis on Chechnya. Chechnya to 
me is not only a humanitarian tragedy to which the 
administration has been paying lip service, it is also a 
geopolitical warning sign that we have been largely ignoring 
and tacitly condoning. In my view these distinctions have not 
been sufficiently made.
    I think our response to Chechnya has been too passive, and 
we therefore risk the possibility that our passivity may 
provide an opening wedge for pressure on Georgia. Georgia is 
extremely vulnerable, and its stability depends largely on Mr. 
Shevardnadze. We can already see some evidence of rising 
Russian pressure on Estonia and Latvia. The Central Asian 
republics are beginning, I think, to start their own 
accommodation process with Moscow, largely because of the way 
they interpret our passivity on Chechnya.
    So it is the short term that concerns me. In the long run I 
am a convinced optimist. I think Russia has no choice but to 
opt for the West and we should facilitate that, but only by a 
discriminating policy.
    Senator Smith. I think it is finding that line of how to 
discriminate, to be constructively engaged but not foolish in 
the engagement, is I think what many are pursuing. As I listen 
to your testimony and read it as you went along, it reminded me 
of a lunch I recently enjoyed with former Secretary of State 
George Schultz. During that lunch he held up President 
Clinton's Time Magazine article praising Mr. Yeltsin as a true 
democrat as an example of how the administration frankly is not 
dealing with reality as it relates to Russia.
    Based on what you have said here, I do not think you 
disagree with him. Is that a fair characterization?
    Dr. Brzezinski. No, I do not disagree. I must say that 
article was truly dismaying. I am pretty sure that the 
President did not write it. The administration lately has 
turned itself into a factory of op-ed pieces. Almost every week 
some administration top official has an op-ed somewhere under 
his or her name, and I cannot see them writing it because 
otherwise that is all that they would be doing.
    So I doubt the President wrote it. But he signed it, he 
agreed to it and his advisors signed off on it. It was a 
disturbing piece because it contained that extraordinary phrase 
about the Russian ``liberation of Grozny,'' which I think is 
going to haunt the President and embarrass the United States 
for a long time to come.
    Moreover, the piece reflected a state of mind that I 
believe is uncritical, overly tactical and probably very 
heavily motivated by domestic political concerns. I have a 
sense that domestic priorities tend to drive the foreign policy 
shaping of this administration to a greater extent than usually 
is the case with most administrations.
    Senator Smith. I am very pleased to be joined by Senator 
Richard Lugar of Indiana. I invite your statement, sir, and any 
questions you might have.
    Senator Lugar. Thank you, Mr. Chairman.
    In a forum that the chairman and I shared earlier this 
morning, Larry Summers, our Secretary of the Treasury, used a 
term which I see in Mike McFaul's testimony, that Putin may 
become a Milosevic. On the more optimistic side, Secretary 
Summers said he might be a DeGaulle or an Adenauer and that, 
looking at it in financial terms, the differences are enormous 
in terms of how this might turn out.
    Taking the more optimistic view, I raised with Secretary 
Summers and I raise with you: What do we know about the 
economic people around Putin who might have the capacity to 
make the reforms we are talking about? The thought is that 
American investment or Western investment might flow to Russia 
if the conditions were right, if Russia was congenial and 
hospitable in ways that Ambassador Strauss, in his tenure, was 
talking about--court reform, contract certainty, mortgage 
money, and those things we generally associate with market 
economics and with the West, Japan and others.
    Are there people in your judgment in Russia who understand 
these institutions sufficiently to legislate these changes, and 
enough people to make them work, to the extent that this kind 
of investment flow or change might occur?
    The reason I ask this is that it seems to me that along 
with the optimistic political scenario the administration 
paints, there is a tendency now to say that the economy of 
Russia is a whole lot better than it has been. Particularly 
after the Russian devaluation and the crash that affected the 
world economies. Perhaps in a relative sense that is true, and 
the oil prices are often cited as a key. Every dollar higher in 
the price of oil is another billion in Russian currency.
    Somehow the demonetization that Brookings Institution and 
others have described. It is hard to get from where things are 
now to a situation that approximates normalcy of investment and 
integration with the Western economies, which everyone feels 
Mr. Putin might be the architect or the bridge.
    Even if he attempted to do that, inadvertently, some 
suggest that Mr. Putin might destroy democracy as others 
alleged that Mr. Gorbachev destroyed communism.
    How do you come out on this? Is there the capacity to make 
the kinds of changes, to bring about a normalcy of 
relationships in the economy, quite apart from the political 
sense? Or, are we simply facing something that is not there and 
we are likely to see a continuation, if not something worse?
    Dr. Brzezinski. That is a very tough and searching 
question. You started off by quoting, I take it, from Mr. 
McFaul's reference to Putin as a potential Milosevic. I think 
that is an interesting analogy. You then countered that 
statement with Larry Summers' speculation that he may turn out 
to be a DeGaulle or an Adenauer.
    Senator Lugar. He thought it might go either way. Larry 
thinks he might be a Milosevic, too, or maybe a DeGaulle.
    Dr. Brzezinski. Yes. Let me suggest first of all that I do 
not think the option is Adenauer or DeGaulle because both of 
these men were deeply committed to democratic processes, deeply 
committed. It was evident in their personal conduct. It was 
evident in Adenauer even under the Nazis, and I do not think I 
need to elaborate on DeGaulle's commitment.
    Mr. Putin's background is very different. I think the real 
choice is between Milosevic, if the adventurism of Chechnya 
leads to Georgia or to the Baltic republics, or--and I do not 
exclude this--Pinochet. It is a measure of how badly democracy 
has deteriorated in Russia that to suggest a similarity to 
Pinochet is to be optimistic as contrast to Milosevic.
    Putin may turn out to be a Pinochet. That is to say, a 
person who imposes order largely by the reliance on state 
institutions, including repression and intimidation, and in so 
doing begins also to cope with the economic situation. Here 
again, I think we have to be very careful in our judgments. We 
do not want Russia to be in anarchy, but let us not fall 
overboard with joy if Russia becomes orderly. It is like 
saying, ``well, is it not wonderful that Mussolini made the 
trains run on time.'' The train schedule in Italy was very 
chaotic before Mussolini came to power, but it was not 
wonderful that it became orderly. A lot of other things were 
lost in the process.
    The question is how will Mr. Putin create a degree of 
confidence and stability in Russian society so that an orderly 
economic recovery can take place. You are quite right in noting 
that right now Russia's economy looks better, but it is 
extremely fragile and it is dependent, as both of you have 
noted, on the world oil market. That market is going to go 
down, and then what?
    Beyond that, I think we have to take note of the degree to 
which Mr. Putin is dealing with a truly ravaged society, which 
is more than just in economic difficulty or perhaps in 
political regression. Let me just give you a few key facts. 
Russian male expectancy used to be 64; it is down to 59, the 
level of the Central African Republic. In Russia deaths exceed 
births by 2 million to 1.3 million. Russian population when 
Russia became a separate state was 151 million in 1990; it is 
now down to 145 million.
    Some 800,000 Russians with higher education have left 
Russia. And 20 percent of Russian first graders--these are 
Russian statistics--20 percent of Russian first graders are 
diagnosed with some form of retardation when they enter school. 
Only 40 percent of Russia's new infants are born fully healthy. 
Russia's GNP is now the equivalent of that of Belgium and The 
Netherlands combined.
    Russia ranked last in the 1999 global competitiveness 
report. Russia ranked 82d out of 99 in Transparency 
International's corruption index. To the west of Russia is 
successful, integrating Europe. To the east of Russia is a 
successfully developing China and a very successful Japan. To 
the south of Russia are 300 million Moslems who are 
increasingly alienated by what the Russians are doing in 
Chechnya.
    This is a terribly difficult situation that Putin will be 
handling, and I think it will take a long time for Russia to 
recover. The only way he can do this is by gradually 
establishing predictable, transparent rules of procedure, 
cultivating an increasingly democratic system, an opening to 
the West.
    Will he do it? He will not do it if we condone misconduct, 
ignore transgressions, and simply applaud anything that he 
does, which unfortunately has been the inclination of the 
administration so far.
    Senator Lugar. The mention of Pinochet denotes the 
reputation that the regime had with the Chicago School of 
Economics professors and other apostles of that school. I am 
curious, if there is an economic order produced by a President 
like Putin, whether he has a similar cadre or corps?
    Dr. Brzezinski. Good question, good question. I am not sure 
he has a similar cadre, although there are a number of people 
who have been working with him that are apparently very able. I 
think the lack of a Russian entrepreneurial is probably even 
more of an issue, however. In Chile there was an 
entrepreneurial tradition that Pinochet unleashed an 
entrepreneurial class even while suppressing his opponents.
    Beyond the oligarchs, I cannot see that there really is a 
entrepreneurial class. And unfortunately, the so-called 
privatization that has taken place in Russia has involved 
massive theft of national resources by the oligarchs. This 
theft must be thought of in a larger context. Sometimes people 
who make excuses for Russia argue that the oligarchs are like 
the American robber barons, that lived during the 1890's.
    You may say whatever you wish about the legality or 
morality of the Vanderbilts, Morgans, Carnegies, or 
Rockefellers. There is one thing they all did, however. They 
invested in America. The oligarchs are not investing in Russia. 
They are investing in the Riviera, in California, in Florida, 
in London, in Cyprus, and offshore in the Caribbean.
    So I am not sure whether Putin has an entrepreneurial class 
yet, and this is another reason why I am a short-term 
pessimist. In the long run, however, I think they have no 
choice but to adapt and things will eventually take off.
    Senator Lugar. I think it is a very important insight. 
Secretary Summers said the first indicator of health would be 
the return of capital to Russia, as you say, the investment by 
the robber barons in their own country. Absent that, it is 
unlikely for capital to flow to Russia until capital, which has 
been sent out, returns.
    I just have one additional question, Mr. Chairman. The 
Library of Congress head Jim Billington joined us this morning 
and through his auspices I understand as many as a third of the 
Duma members are coming to Washington in May to visit with 
Members of Congress. Some are going to see Governors of our 
States and trail them around or learn about our State 
legislatures.
    One consequence of the election, is that there are a large 
number of new people in the Duma who are very different from 
the Russians which we have all become accustomed, and who have 
made these trips before.
    Do you have any insights on the Duma members now and what 
the effect might a trip of one-third of these members be when 
they see our institutions in action? In other words, what 
program should we be thinking of if we are to capitalize upon 
that opportunity?
    Dr. Brzezinski. I think the next two witnesses know the 
details and the character of the Duma better than I, so I 
cannot really answer you regarding the specific character of 
the Duma. I think I do not know any more about it than you do.
    But I do want to say that, one, the Billington program is 
terrific and it deserves support. I think it is a wonderful way 
of opening up the eyes of the emerging Russian elite to the 
realities of a complex modern continental society such as ours.
    Allow me to make a suggestion here. You have helped this 
program, you have financed it, and I think it is a terrific 
initiative. It should be continued and expanded, but it should 
not be a Russia only or a Russia first program. Half the people 
from the former Soviet Union are now in the independent states. 
We have an enormous strategic interest in these states being 
viable and remaining independent, precisely because Putin and 
his generation are still talking about recreating some form of 
preponderance over the former Soviet space.
    We should make sure that for every Russian legislator who 
comes here--and by God, we ought to bring as many as we can--
there ought to be an equivalent number of Ukrainians, 
Georgians, Uzbeks, Kazakhs, and yes, even Belarussians, despite 
the repressive character of Lukashenko's regime. You should 
insist on this, because the administration has this tendency, 
which I think is more of a mind set than a calculus, of 
essentially operating on Russia-first basis.
    It is a damn good program, but let us make it for 
everybody. It is in our interest to do so, and it is in the 
interest of consolidating geopolitical pluralism in the space 
of the former Soviet Union.
    Senator Lugar. That is an excellent suggestion.
    Senator Smith. Very good. Thank you, Senator.
    I just have two additional questions. I suppose if I 
remember anything of your testimony this morning it will be the 
word ``discriminating.'' I wonder if you can put a little more 
meat on that bone. How ought our Government be more 
discriminating in its policy toward Russia?
    Dr. Brzezinski. The case of Chechnya is particularly very 
relevant to that question. I think we have been 
undiscriminating in the sense that we have only paid lip 
service to Chechen civilian casualties while in fact condoning 
what the Russians have been doing. I hope to God our activity 
has gone no further than condoning, because, as you know, there 
is now a debate in German press regarding alleged German 
intelligence assistance to the Russians in the conflict against 
the Chechens. In defending this activity some Germans are now 
saying that they have not done as much as the Americans.
    I hope that is not true, because I think that would be a 
real blot on our own sense of traditions and what we stand for.
    Senator Smith. But that allegation has been made?
    Dr. Brzezinski. By the Germans.
    Senator Smith. By the Germans.
    Dr. Brzezinski. In the case of Chechnya there are things we 
could have done to show that we mean that we are seriously 
concerned. Take one specific example. The Russians have been 
invited to the G-7. It is not a decisionmaking body, but it is 
a summit of the advanced industrial democracies. It is a kind 
of a club and membership in the club confers status.
    Russia is not an advanced economy. Russia is by no means a 
democracy. Yet it was included in order to give President 
Yeltsin status. And Yeltsin at one time appealed to the best 
instincts of the Russian people. He said to the Russian people 
on more than one occasion: The imperial burden is a cross; we 
do not benefit from it; freedom for others is in our interest.
    Putin, in contrast, has appealed to the worst instincts in 
his campaign about Chechnya and in his campaign about 
rebuilding the state. I would disinvite the Russians from the 
G-7, simply say to them: Look, I am sorry, but your conduct is 
not compatible with the standards of advanced industrial 
democracies; we will meet without you.
    The Council of Europe has just suspended Russia's 
membership. I do not know what our reaction to that has been, 
but at least some European diplomats have indicated that the 
administration was not particularly happy, that the Europeans 
worked up the guts to suspend Russia's voting rights.
    It is these things that we could have done to lend 
credibility to the notion that what the Russians are doing is 
not compatible with standards that we expect, and to 
demonstrate that this behavior is isolating Russia. There are 
also some options in the economic area, as Senator Leahy 
mentioned. There are things we could have done while 
maintaining the Nunn-Lugar approach, that is, by continuing 
arms control negotiations, which is in our mutual interest, 
while indicating that in the long run we do want to see Russia 
as a component of a larger Atlanticist Europe. I believe this 
should be our strategic objective.
    This is why I personally advocate the enlargement of NATO, 
but making it very clear that NATO ought to be open to 
everybody that wishes and qualifies for membership.
    Senator Smith. Including Russia?
    Dr. Brzezinski. Including Russia if it wishes and 
qualifies.
    Senator Smith. And qualifies.
    Dr. Brzezinski. Those are fairly big if's.
    Senator Smith. Dr. Brzezinski, this last question you 
should feel no obligation to answer, but I have to ask you why 
it is that you denied use to Ian Brzezinski of the family car 
between the years of 1978 and 1980.
    Dr. Brzezinski. Is this an official complaint?
    Senator Smith. It is a question asked only in humor.
    We thank you very much, doctor.
    Dr. Brzezinski. Strong factual background, too.
    Thank you very much. It is good to be with both of you.
    Senator Smith. We are grateful for your testimony. You make 
such an enormous contribution every time you come here and have 
to our country on so many occasions, and we thank you, sir.
    Dr. Brzezinski. Thank you. Thank you very much.
    Senator Smith. We are now pleased to call forward our next 
witnesses. We welcome Dr. Thomas E. Graham and Dr. Michael A. 
McFaul, both of whom are senior associates at the Carnegie 
Endowment for International Peace. Gentlemen, we welcome you.
    Dr. Graham, we will start with you.

 STATEMENT OF THOMAS E. GRAHAM, JR., PH.D., SENIOR ASSOCIATE, 
   CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, WASHINGTON, DC

    Dr. Graham. Thank you very much, Mr. Chairman. I deeply 
appreciate the opportunity to speak before this committee on 
the implications of Russia's Presidential elections for Russian 
democracy and U.S.-Russian relations. Let me also add that it 
is a pleasure to appear on this panel with my colleague Mike 
McFaul. I think our testimony will demonstrate that, at a 
minimum, there is pluralism of opinion, some would say 
incipient democracy, at the Endowment and that is all for the 
good.
    This is a very timely hearing. It is no secret to this 
committee that U.S.-Russian relations are in deep trouble. In 
fact, I think we could argue that U.S.-Russian relations, 
despite a certain thaw over the past few weeks, are at their 
lowest point since the breakup of the Soviet Union. Talk of 
strategic partnership has been replaced on the Russian side by 
rhetoric that is reminiscent of the cold war at times. If you 
look around this room you can see that the American political 
establishment is suffering from a severe case of Russia 
fatigue.
    Russia's financial collapse of 1998, Kosovo, the bank 
scandals of last summer, and Chechnya have all taken their 
toll. I do not think I need to explain to you why Russia still 
matters. I think we will also agree that it is time and 
important to put an end to the deterioration in our 
relationships and to preferably put them on a better track, and 
Mr. Putin's election and the emergence of a new leadership in 
Russia provides us with an opportunity.
    Much, of course, is going to depend on what the Russian 
leadership decides to do. Mr. Chairman, as you have already 
noted, the continuation of the brutal campaign in Chechnya is 
going to impede any near-term improvement. For our part, as we 
begin to rethink our policy toward Russia we need to take a 
hard look at Mr. Putin, we need to appreciate the complexity of 
the problems he is facing and the constraints on his ability to 
act.
    That is, we need to avoid recreating that cycle of great 
expectations followed by deep disappointment and mutual 
recriminations that has bedeviled the relationship over the 
past several years.
    So to begin, who is Mr. Putin and what does his election as 
President portend for U.S.-Russia relations? Mr. Chairman, as 
you have already noted, Putin's election should raise concern 
about the state of democracy in Russia today. To be sure, the 
elections themselves probably met minimal standards for being 
declared free and fair. Turnout was just under 69 percent, the 
voters had a choice of 11 candidates ranging across the 
political spectrum. No one has yet offered credible evidence of 
massive fraud that would have denied Mr. Putin victory in the 
first round.
    But I think you will agree that democracy goes beyond the 
simple mechanics of voting and vote counting to deeper 
political structures and attitudes. Here I think there are 
concerns. Putin's phenomenal rise from political obscurity to 
the highest office in Russia in 8 months underscores how 
unstructured Russian society is and how easy it is to 
manipulate the electorate.
    The Kremlin's cynical use of its near monopoly of the media 
last fall to destroy Putin's rivals with half-truths and 
fabrications was hardly democratic in spirit, even if those 
opponents used similar tactics. But more troublesome is the 
near total absence in Russia of accountability to the public, 
the bedrock of democracy. Civil society is exceedingly weak. It 
has not grown much over the last decade. Russia lacks a dense 
network of civic organizations that could act as a check on 
government behavior, particularly between elections.
    Now, the reverse side of this lack of accountability is 
that Putin's so-called popular mandate brings him very little 
in the political arena in which he now finds himself, one that 
is dominated by rival and competing elites. To put it in the 
simplest terms, the people are not about to go out in the 
streets in support of Mr. Putin as they did for Mr. Yeltsin a 
decade ago. Mr. Putin is going to require other resources in 
order to deal with and manage these elite audiences.
    I think we should not overestimate his chances. He faces 
serious constraints. Four stand out. First, while the Russian 
constitution invests the President with vast powers, in 
practice his power is much less. As a result of the devolution, 
fragmentation, privatization, and erosion of state power, he 
must now compete with multiple autonomous centers of power in 
the guise of regional barons and business magnates, or 
oligarchs as they are often called.
    The Russian President simply cannot take on all the 
competing powers at once. At best, he can exploit the 
differences among them to gradually enhance his own power and 
authority and to rebuild the state as an autonomous entity in 
Russian politics.
    Second, Putin faces very severe resource constraints. 
Although tax collection has improved somewhat over the past 
several months, the Russian Federal budget still amounts to 
about 25 billion U.S. dollars at current exchange rates, 
roughly what the United States spends on the intelligence 
community alone. Putin simply does not have the resources to 
spend more on the military and the security services, pay off 
pension and wage arrears, rebuild the shattered public health 
system and deteriorating educational system, and so on. He is 
going to have to make difficult choices.
    Third, Putin also has severe constraints in the area of 
human resources. He does not have enough loyalists to staff the 
key positions in the government. The conventional wisdom in 
Moscow is that you need about 400 people to staff the 
government properly. According to Kremlin insiders, Putin has a 
very small bench, perhaps as few as 40. And this means that he 
is going to have to reach outside to others and, given the 
nature of Russian politics, this is going to become a coalition 
government Russian-style, based not on parties but on 
political-economic coalitions in elite circles. This is 
necessarily going to undermine the effectiveness and 
cohesiveness of his government.
    Fourth and perhaps most important, there should be serious 
questions about Mr. Putin's leadership abilities. His KGB days 
in Leningrad and East Germany, his 6 years as a deputy mayor in 
St. Petersburg, and his positions in Moscow since 1996 all 
suggest a man of limited horizons and narrow goals. Nothing 
suggests that he ever harbored ambitions to rise to the 
pinnacle of power in Russia. Little indicates that he has 
developed the political skills necessary to manage what has 
become a very unruly Russian political system.
    Putin may surprise us, as other great figures have in 
Russian history. But at the moment I think we are right to 
reserve judgment.
    Now, despite these constraints on Putin, I think there is 
still room for progress on some issues of interest to us. Over 
the past decade a broad, shallow consensus has emerged across 
the political spectrum, emphatically including the Communists, 
as Russians have come to realize there can be no return to the 
Soviet past, even if many vehemently disagree with the policies 
of the past decade.
    Ideological cleavages have given way to a competition among 
vested political-economic interests as the defining feature of 
Russian politics. This change--and I think Mike will speak 
about this somewhat more--is reflected in the composition of 
the new Duma, which is dominated by non-ideological, pragmatic, 
some would say cynical, deputies.
    Moreover, the Russian Government will have more room for 
maneuver because of an improved economic outlook. As has 
already been noted, the economy grew for the first time last 
year, at roughly 3 percent. The forecast for this year is 
growth of perhaps as high as 5 percent.
    So what can we expect? On the economic front, we are likely 
to see progress in building a more favorable environment for 
investment, including a new tax code, movement on production 
sharing arrangements, and improved protection of minority 
shareholders rights. The outlook for land reform is less 
certain. This is a contentious issue, but support is growing. I 
would point out that already more than a quarter of Russia's 
regions, 89 regions, have passed laws allowing for the free 
buying and selling of land, despite the lack of an overarching 
Federal code. So I think this is a sign of progress.
    But the point I want to make here is that it is unlikely we 
are going to see a great reform in the economic realm in the 
near future, as some are predicting. The problems are still 
very difficult. We will see a small step forward, but nothing 
more than that.
    On domestic politics, I think the situation is much less 
promising. Putin's own comments on the press, the way he dealt 
with the Radio Liberty correspondent, Mr. Babitsky, earlier 
this year, suggest a man who has limited commitment to at least 
some democratic freedoms. Progress is also likely to be slow on 
two other key issues, corruption and Chechnya.
    Corruption is a massive problem in Russia. There are no 
simple solutions. Mr. Putin's actions to date, rather than his 
words, suggest that he is going to move very slowly and 
cautiously on this. In fact, he has granted something of 
immunity to his former boss, Mr. Baradin, who is implicated in 
the Mavatec scandals of last summer. Mr. Baradin is very happy 
about that. I think we should be somewhat more concerned.
    On Chechnya, I think it is clear that Mr. Putin still needs 
to bring this to a victorious end. He needs that because his 
position is dependent on support from the military and the 
military is still intent on crushing the Chechen rebels. So I 
doubt that we are going to see serious improvement in this area 
over the near future.
    Finally, on foreign policy, the broad outlines of Mr. 
Putin's foreign policy have become evident over the past 
several weeks with the publication and discussion of three 
documents: a national security doctrine, a military doctrine, 
and a foreign policy concept. Just three points.
    First, these documents make clear that the major threat to 
Russia's security and wellbeing is internal decline and decay. 
As a result, the first goal of Russian foreign policy is to 
help create conditions that are conducive to internal 
reconstruction. This entails ensuring continued Russian access 
to Western technology, credits, and know-how. It entails 
continuing to work to integrate Russia into the global economy.
    Second, Russia's attitude toward the outside world is 
changing. In an earlier version of the national security 
concept it adopted in 1997, Russia saw the West as relatively 
benign. The latest documents make it clear, however, that the 
West is seen as something of a looming threat.
    Third, the Russian political elite is well aware that the 
disarray and lack of coordination in foreign policy 
decisionmaking and implementation have only exacerbated 
problems arising from Moscow's shrinking resource base. The 
rapid turnover in key personnel--five prime ministers, three 
foreign ministers, three defense ministers, and seven security 
council secretaries since January 1, 1996--give you a sense of 
how problematic this has been.
    If Mr. Putin can, as he claims he will try to do, impose 
greater coherence on Russia foreign policy, we could see Russia 
play a much more active role abroad, despite his current 
weakness.
    Now, given these fundamental concerns, I think Mr. Putin is 
going to try to re-engage the West and particularly the United 
States, as he has over the past 3\1/2\ months. As has been 
already noted, we are likely to see progress on START II. It 
could be ratified by the Duma as early as this Friday. Mr. 
Putin I think is going to step up engagement on ABM Treaty 
modifications, START III, National Missile Defense.
    This does not mean that any of this is going to be easy. It 
would be hard to do under the best of circumstances and we are 
far from there at this point. But the point is that with Mr. 
Putin we will probably have a better chance to sit down and 
discuss these issues than we did in the last months and years 
of Yeltsin's Presidency, simply because there is likely to be 
more coherence in the Russian political establishment.
    Finally, some thoughts on U.S. policy. I think it is clear 
from what has been said today that Putin's Russia is not going 
to be an ideal Russia, but it is a Russia that we can deal with 
and a Russia that we need to deal with. Our first task should 
be to rebuild the trust that has been lost over the past few 
years because that is indispensable to productive negotiation 
on strategic issues and nonproliferation concerns that lie at 
the top of our agenda with Russia.
    We can begin to do this in part by talking in less 
grandiose terms and more realistically about the quality of our 
relations with Russia. The administration's earlier talk of 
strategic partnership created expectations in Russia that we 
were never prepared to meet and our failure to meet them led 
many Russians to ascribe to us pernicious motives we never in 
fact entertained.
    Now is the time for a little honesty. We should make clear 
that the intensity of our engagement with Russia will vary from 
issue to issue. On some, such as the strategic nuclear balance, 
nonproliferation, Russia will be a central focus of our policy. 
On others, such as many global economic matters, Russia will be 
a secondary consideration at best.
    We also need to lay down very clearly what our position is 
on Chechnya and the fact that continuation of this military 
campaign is going to impede progress in other areas. It is 
simply inconceivable that we will build the public support we 
need in this country for constructive engagement with Russia if 
Chechnya continues.
    In addition, I think as we seek to re-engage Russia we need 
to appreciate Russia's limited capacity to engage. It takes two 
to engage and, given Russia's dire socioeconomic conditions, 
its declining resource base, it has very little capacity to 
engage. It is therefore imperative that we work with Russia on 
issues where it really matters, that we set realistic goals, 
places where we have chances of success. That will produce the 
type of public support we need in the United States for 
continued engagement.
    Finally, in engaging Russia I would urge that we retain a 
respectful distance from the Russian political leadership, in 
sharp contrast to the way the administration approached Yeltsin 
over the past several years. These overly close relations I 
think only warp our perception of what is actually happening in 
Russia, they diminish the support we have within Russia itself 
and then in particular they blind us to the down sides of 
developments in Russia and limit our capacity to react to them 
properly.
    Now, the type of engagement that I am describing I think 
lacks the high drama of the 1990's. Some will find it 
pedestrian. But I think that only by lowering our expectations, 
by understanding where our interests overlap and conflict with 
Russia's, and by acknowledging the limits on our ability to 
cooperate, in short only through greater realism than we have 
demonstrated over the past decade, can we hope to put on track 
our relations with Russia, a country that still remains 
extremely important to our security and will so well into the 
future.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Graham follows:]

            Prepared Statement of Dr. Thomas E. Graham, Jr.

    Although there has been a certain thaw in our relations with Russia 
over the past few weeks, it is still safe to say that they have reached 
their nadir since the breakup of the Soviet Union. During the past 
year, senior Russian government officials have at times resorted to 
rhetoric reminiscent of the Cold War. The United States is treated with 
increasing suspicion in commentary in Russia's mainstream press. 
Department of State polling has traced a steady decline in favorable 
opinion of the United States among Russians from over 70 percent in 
1993 to just 47 percent earlier this year.
    Meanwhile, in the United States, the once prevailing image of 
Russia as an aspiring democracy has given way to one of Russia as a 
hapless land of massive corruption, pervaded by organized crime. The 
American political establishment suffers from a severe case of Russia 
fatigue. Growing numbers of Americans believe that Russia simply does 
not matter that much any longer in the world and that the United States 
can and should pursue its interests with little reference to Russia. 
Few Americans would advocate gratuitously harming Russia, but equally 
few are prepared to spend much time, energy, or money to nurture good 
relations with Russia.
    Three events over the past year and a half were pivotal in fueling 
this deterioration in relations: Russia's financial collapse in August 
1998, the Kosovo conflict, and Chechnya.
    The financial collapse marked the failure of the grand project of 
quickly building a vibrant democracy and robust market economy in 
Russia along Western lines. For many Russians, it confirmed suspicions 
that the West was not trying to help their country rebuild but rather 
seeking to turn it into a third-rate power. In the West, and 
particularly in the United States, we began to take a more sinister 
view of Russia. Because we tend to think there is something natural 
about the emergence of democracies and market economies, many Americans 
see the problems in Russia as a sign of some profound moral flaw in 
Russia's national character.
    The Kosovo conflict, at a time when NATO was adopting a new 
strategic doctrine and adding new members, confirmed Russians' worst 
fears about the Alliance. Moreover, Kosovo underscored just how far 
Russia's international standing had fallen during the nineties and how 
little its voice mattered in world affairs, even in Europe, a region of 
vital significance to Russia. While many in the West hailed the role 
that then President Yeltsin played in bringing the conflict to an end 
on NATO's terms, much of the Russian political elite interpreted this 
as a sign of Russia's weakness; some even saw it as a betrayal of 
Russia's interests. While most Americans saw the Russian ``dash to 
Pristina'' as an ill-conceived act of desperation, most Russians 
applauded it as a demonstration of Russia's will and ability to carry 
out a military operation even in the face of NATO's opposition.
    Chechnya has dramatically underscored the gap between Russian and 
American elites and broader publics. While we have been appalled by the 
brutality of Moscow's military operation, Russians have approved it as 
necessary to putting an end to the terrorist threat emanating from 
Chechnya, restoring order to a Russian territory, and safeguarding the 
country's territorial integrity. Against the background of what 
Russians saw as an illegal and inhumane NATO air campaign in Kosovo, 
Russians have been incensed by the West's criticism of their actions in 
Chechnya. The criticism is, to their minds, evidence of a double 
standard, of a refusal to treat Russia as an equal, and of an 
unwillingness to appreciate the depths of the problems Russia now 
confronts, problems, moreover, that many Russians believe arose out of 
their following Western advice over the past decade.
    Both Russian and American leaders would like to halt--and if 
possible reverse--this deterioration in relations before it does 
irreparable harm. Each side recognizes that the other will remain 
critical to its own security and well-being well into the future. The 
emergence of a new leadership in Russia, the transfer of power from 
President Yeltsin to President Putin, provides an opportunity to put 
the relationship back on track. Whether this opportunity will be seized 
remains an open question. Much, to be sure, will depend on the course 
the new Russian leadership takes. There are actions, for example, in 
Chechnya and, more broadly, in the area of human rights and civic 
freedoms, that the Russian government could take that would undermine 
all hopes for near-term improvement in relations.
    At the same time, in plotting our course toward improved relations, 
we need to take a hard look at Putin, appreciate the complexity of the 
problems confronting him and the constraints on his ability to act, 
separate the substance from the style of Russian foreign policy and 
determine where differences over substance preclude productive 
interaction, and articulate clearly what we need from Russia to build 
public support at home for active engagement with Russia. Moreover, we 
need to keep our goals in line with Russia's capabilities if we are to 
avoid the cycle of great expectations followed by profound 
disappointment and mutual acrimony that has bedeviled the relationship 
over the last several years.

                   RUSSIAN DEMOCRACY FRAGILE AT BEST
    Putin's election as president on March 26 marked the first 
democratic transfer of power in Russian history, the Clinton 
Administration and many commentators have maintained. And, indeed, the 
election probably met minimal standards for being declared democratic 
and free and fair. Turnout was just under 69 percent; the voters had a 
choice of eleven candidates representing a range of political views. 
While there have been charges of fraud, and it is likely that fraud did 
occur in some districts, no one has offered credible evidence of 
massive fraud that would have denied Putin victory in the first round. 
The official electoral results were in line with pre-election polling. 
The only surprise was that the communist party candidate did better 
than expected, and that was unlikely the result of widespread fraud. 
Consequently, we can be confident that Putin's election at some level 
represents the will of the Russian people.
    This is not to say that all is well with democracy in Russia. Far 
from it, particularly when one looks beyond the simple mechanics of 
voting and vote counting to the deeper political structures and the 
vitality of democratic virtues. At a minimum, Putin's phenomenal rise 
from political obscurity to Russia's highest office in eight months 
should give pause to anyone concerned about the consolidation of 
democracy. The rapidity with which Russians swung from overwhelming 
support for former Prime Minister Primakov to overwhelming support for 
Putin underscores how unstructured Russian society is, how poorly 
societal interests are articulated, and, thus, how easy the electorate 
is to manipulate. That Putin's rise came against the background of a 
shockingly brutal, but seemingly successful, military operation in 
Chechnya should raise concerns about the standing in Russian society of 
the democratic virtues of tolerance and compromise. The Kremlin's 
cynical use of its near monopoly of the media last fall to destroy 
Putin's rivals with half-truths and fabrications was hardly democratic 
in spirit, even if those opponents engaged in similar tactics.
    More troublesome is the near total absence in Russia of 
accountability to the public, the bedrock of democracy. As many 
commentators have pointed out, Putin failed to lay out a detailed 
political and economic program during the presidential campaign. He 
sent contradictory signals on his commitment to economic reform and 
democracy, telling different audiences what they wanted to hear. This 
is hardly unheard of in countries we call democratic without 
reservation. But the point is that the Russian public has no effective 
means to hold Putin accountable. Russia lacks a dense network of civic 
organizations to put pressure on the government between elections and 
check its behavior. Moreover, other elected officials, who might act as 
a democratic check on Putin, are no more beholden to their electorates 
than he is.

                     CONSTRAINTS CONFRONTING PUTIN
    The reverse side of this lack of accountability is that Putin's 
popular mandate brings him very little in the political arena in which 
he must now operate, one that is dominated by the competing elite 
circles and coalitions that have emerged over the past decade. There 
are few ways he can mobilize his popular support for political 
advantage now that the elections are over. There are no indications, 
for example, that the people are about to take to the streets in 
support of Putin as they did for Yeltsin a decade ago. Putin will 
require other resources to manage and discipline these elites, a task 
that is essential to his carrying out his agenda, whatever it might 
turn out to be. We should not overestimate his chances. He faces 
serious constraints. Four stand out.
    First, although the Russian Constitution invests the president with 
vast powers, something that has given rise to the myth of a 
``superpresidency,'' in practice, his power is much less. Over the past 
decade, multiple autonomous centers of power have emerged as a result 
of the devolution, fragmentation, privatization, and erosion of state 
power. In relative terms, considerable power now lies in the hands of 
regional elites and business magnates, or ``oligarchs'' as they are 
often called.
    The levers that Russian leaders once used to control regional 
elites have all atrophied. The dense, countrywide administrative 
structures of the Communist Party of the Soviet Union collapsed with 
the breakup of the Soviet Union and have yet to be replaced. Law 
enforcement agencies and the courts, even if nominally subordinate to 
Moscow, often do the bidding of regional leaders, because their 
officials are dependent on the goodwill of those leaders for housing, 
conveniences, and other amenities. Regional military commanders often 
cut deals with local elites to ensure an adequate flow of energy and 
provisions to their garrisons. As a result, the loyalty of the 
institutions of coercion to the Kremlin is dubious at best outside of 
Moscow.
    The Russian president may be the strongest of all the centers of 
power, and he may be able to enforce his will on one or more of the 
competing centers. But even one-on-one, victory is not ensured; within 
just the past week Putin had to back down from an effort to depose the 
governor of his home region, St. Petersburg, a man for whom he has 
expressed contempt in public, because of the governor's formidable 
regional political machine. This failure only underscores the point 
that Putin certainly lacks the resources to take all the competing 
power centers on at once. In other words, he cannot govern the country 
against the wishes of the regional barons and oligarchs. At best, he 
can exploit the contradictions among them to expand his own room for 
maneuver, enhance his own power and authority, and rebuild the state as 
an autonomous entity. Success in such an effort is uncertain, however; 
it will require considerable political will, imagination, skill, and 
time.
    Second, the resources are lacking for the vigorous pursuit of 
rebuilding the state, which Putin has set as his primary goal. In the 
past decade, Russia has experienced a socio-economic collapse 
unprecedented for a great power not defeated in a major war. The 
economy has been cut in half Russia's GNP is now roughly 7 percent of 
the United States'. Although tax collection has improved over the past 
several months, the Russian federal budget still amounts to about $25 
billion at current exchange rates, that is, roughly what the United 
States spends on the Intelligence Community alone. Putin does not have 
resources to spend more on the military and security services, pay off 
pension and wage arrears, rebuild a shattered public health system and 
a deteriorating educational system, build up an independent judiciary, 
aggressively combat corruption, create the institutions of a well-
functioning market cconomy, and so on. He will have to make difficult 
choices.
    Third, Putin lacks sufficient loyalists to man the government. The 
conventional wisdom in Moscow is that it takes some 400 people to staff 
the key positions in the government and presidential administration. 
According to informed Moscow sources, Putin's bench of loyalist is very 
narrow, perhaps as few as forty people, largely drawn from his security 
services associates from St. Petersburg. Many of these individuals 
already hold important positions in Moscow, such as Sergey Ivanov, 
Security Council secretary, and Nikolay Petrushev, FSB director. 
Consequently, Putin will have to reach out beyond his loyalists to 
staff the government. Even if he appoints ``technocrats,'' as he most 
likely will, they will be connected to one or another elite coalition 
vying for power and influence in Moscow; that is simply the nature of 
the Russian politics. This will produce a coalition government Russian-
style, based not on political parties, but on elite coalitions and 
lobbies. Such a coalition will inevitably erode the cohesion and 
effectiveness of Putin's government.
    Fourth, and perhaps most important, there should be serious 
questions about Putin's leadership abilities. Contrary to the 
conventional wisdom in Washington, we know much about Putin, more, for 
example, than we knew about either Gorbachev or Yeltsin when they 
assumed power. Little in his biography, however, is encouraging on the 
key question of whether he is prepared to lead Russia. His KGB days in 
Leningrad and East Germany, his term as deputy mayor of St. Petersburg 
in the early nineties, and his positions in Moscow since 1996 all 
suggest a man of limited horizons and narrow goals. He has spent most 
of his career as a deputy or less; rarely, has he been in charge. There 
is nothing in his background to suggest that he ever harbored ambitions 
to rise to the pinnacle of power in Russia, nothing to indicate that he 
has honed the political skills needed to impose his will on Russia's 
unruly political system. He may know the West better than any Russian 
leader since Lenin, because of his KGB experience, but he probably 
understands Russia more poorly than any Russian leader in the twentieth 
century--there is little evidence that he traveled widely around the 
country before he became Prime Minister last August.
    Putin may surprise us, as have other gray figures in Russian 
history. He may turn out to be a forceful, energetic, effective leader 
with a compelling vision of what Russian can be both at home and abroad 
around which he can rally competing elites. Certainly, that is what the 
numerous Kremlin emissaries to this town over the past few months would 
like us to believe. At the moment, however, we are right to have our 
doubts.

                        EMERGING ELITE CONSENSUS
    Despite the constraints on Putin, there is still room for progress 
on the economic front, in the consolidation of society, and in the 
pursuit of a more coherent foreign policy. With a different president 
perhaps even more progress could be made, for the past decade has not 
passed in vain, despite all the frustrations, disappointments, and 
setbacks. A broad, if shallow, consensus has emerged across the 
political spectrum--including most emphatically the communists--as 
Russians have come to realize that there can be no return to the Soviet 
past, even if many vehemently disagree with the policies of the past 
decade. Ideological cleavages have given way to competition among 
vested political/economic issues as the defining feature of Russian 
politics. This change is reflected in the composition of the new Duma, 
which is dominated by non-ideological, pragmatic--some would say 
cynical--deputies.
    For all the resentment of the West, mainstream political figures 
admit that Russians themselves bear ultimate responsibility for what 
has become of their country. Moreover, in the past two to three years, 
they have come to accept the predicament their country faces. Putin 
himself made this point emphatically in a document he released at the 
end of last year, before Yeltsin's resignation, entitled ``Russia at 
the Turn of the Millennium.'' Among other things, he noted that the 
Russian economy would have to grow at 8 percent a year for the next 
fifteen years for Russians to enjoy the standard of living now enjoyed 
by Spain and Portugal. Finally, Russians now realize that they must 
rely first of all on themselves in any effort to rebuild their country 
and regain their standing in the world.
    In addition to this consensus, an improved economic outlook will 
give the Russian government more room for maneuver. The financial 
collapse of August 1998 turned out to be a blessing in disguise. The 
sharp devaluation of the ruble followed by a sharp rise in oil prices 
has fueled an economic recovery over the past year. In 1999, the 
economy turned in its first year of undoubted economic growth in the 
past decade, with GNP rising by over 3 percent. Forecasts for this year 
are for continued growth, perhaps as high as 5 percent. In the absence 
of more thoroughgoing reforms, this recovery remains fragile. But, for 
the moment, it has brought more money into the economy, increased tax 
collection, and put considerably more resources at the government's 
disposal.
    What will this consensus and increased resources mean for Russian 
economic policy, domestic politics, and foreign policy over the near 
term?
    On the economic front, we are likely to see progress on building a 
more favorable environment for investment, both domestic and private. 
But we are unlikely to see the radical breakthrough some are 
predicting: Even if the government comes up with a radical plan, 
implementation will be spotty, for that will require millions of 
Russians to change deep-seated habits and weak government institutions, 
particularly the judiciary, to enforce new legislation. Nevertheless, 
over the next several months, we are likely to see a new tax code that 
reduces and rationalizes taxes, progress on production sharing 
arrangements, and improved protection of minority shareholders' rights. 
The outlook for land reform is less certain. It remains a contentious 
issue, as it is in all societies moving away from traditional to more 
market-based forms of landholding, but support for land reform is 
growing. Over a quarter of Russia's eighty-nine regions have already 
passed laws permitting the buying and selling of land, despite the 
absence of an overarching federal land code.
    On domestic politics, Putin has set his primary goal as rebuilding 
the state. Progress will be slow, as Putin will have to sort out 
arrangements with still powerful regional elites if he is to create a 
flexible, productive federal system. Restoring order, another of 
Putin's priorities, could put some democratic freedoms at risk, 
particularly since Putin will have to rely on security services that 
have been left largely unreformed since the breakup of the Soviet 
Union. Moreover, Putin's own comments on the press, including his 
labeling of RFE/RL correspondent Babitsky as a traitor for reporting on 
the Chechen side of the Chechen conflict, suggest less than a full 
commitment to some democratic freedoms.
    Progress is also likely to be slow on two issues of great 
importance to the United States: corruption and the war in Chechnya. 
The corruption problem is massive; there are no simple quick solutions. 
Moreover, since virtually everyone is guilty in some way, unless the 
issue is treated with extreme care, any anti-corruption campaign risks 
looking like a politically motivated attack on one's opponents. Such an 
approach would create more problems than it would solve, while 
undermining efforts to democratize Russia. Bringing the Chechen 
conflict to a ``victorious'' end remains an imperative for Putin, in 
part because the military's loyalty is critical to his own power 
position and the military is intent on crushing the Chechen rebels. 
Moreover, in the eyes of the Russian public it is still his most 
visible success. Without major successes in other areas, Putin will 
have little room for negotiating a political solution to Chechnya. That 
said, as Chechnya looks increasingly like a quagmire, he will be 
seeking a face-saving way out of the conflict.

                       FOREIGN POLICY UNDER PUTIN
    The broad outlines of Putin's foreign policy have emerged over the 
past several weeks in three documents that have been released or 
discussed publicly: the national security concept, the military 
doctrine, and the foreign policy concept. These documents have been in 
the works for several months and reflect not simply Putin's preferences 
but those of the Russian political elite as a whole. Three aspects of 
these documents merit particular stress.
    First, they make clear that the major threat to Russia's security 
arises from internal decline and decay. As a result, the first goal of 
Russian foreign policy is to help create conditions that are conducive 
to internal reconstruction. This entails ensuring continued Russian 
access to Western money, technology, and markets, which is critical to 
economic recovery, as well as working to integrate Russia into the 
global economy as smoothly as possible. In the short-term, it also 
calls for stepped up efforts to restore relations with the IMF and to 
move ahead on debt restructuring or relief with the Paris Club.
    Most important, the requirements of internal reconstruction require 
that Russia avoid confrontation whenever and wherever possible. In 
particular, the Russian leadership understands that it cannot afford a 
complete break in relations with the West, even if it wants to pursue 
its own interests more aggressively in Europe, the Middle East, East 
Asia, and the CIS. In addition, while the Kremlin will continue to talk 
of Russia as a major force in world affairs, in practice it will tend 
to focus on those few areas that are genuinely critical to its own 
recovery, which include strategic relations with the United States, 
European security matters, the Caspian region, Iran, and the CIS, as 
well as admission to the World Trade Organization and access to Western 
markets. In other words, Russia will act like a regional, rather than a 
world, power, no matter what the rhetoric.
    Second, as a result of developments over the past few years, 
Russia's attitude toward the outside world has changed. In an earlier 
version of the national security concept adopted in 1997, Russia saw 
the outside world, and particularly the West, as relatively benign. The 
latest foreign policy documents make it clear, however, that the West 
looms as something of a threat. The opening paragraphs of the new 
national security doctrine, for example, sharply contrast Russia's 
effort to build a multipolar world in which economic and political 
factors play an increasingly greater role with the alleged effort of 
the West led by the United States' to dominate international relations 
through unilateral actions, often involving the use of force.
    Third, the Russian political elite is well aware that disarray and 
lack of coordination in foreign policy decision-making and 
implementation have only exacerbated problems arising from Moscow's 
shrinking resource base. The rapid turnover in key personnel--five 
Prime Ministers, three Foreign Ministers, three Defense Ministers, five 
Ministers of Finance, five heads of the Presidential Administration, 
and seven Security Council secretaries since January 1, 1996--has 
hampered the pursuit of a coherent foreign policy, as have rivalries 
among ministries and large commercial entities, such as the gas 
monopoly, Gazprom, and one of Russia's leading oil companies, Lukoil. 
In the past, it often seemed that Russian policy was not so much set by 
the government as by the agencies that had assets to bring to bear on 
the issue, with decisions being made on the basis of narrow 
bureaucratic concerns rather than national interests. If Putin can 
impose greater coordination and coherence on Russian foreign policy--a 
big if--Russia could play a much more effective and active role abroad 
despite its current weakness.
    Given these fundamental concerns, Putin will likely continue to 
reengage the West, and the United States in particular, as he has since 
he became acting President three and a half months ago. He is pressing 
for Duma ratification of START-2, which could occur this Friday. He 
will engage more actively in discussions of ABM Treaty modification, 
START-3, and national missile defense, despite deep-seated concerns 
about U.S. policies on missile defense. He will seek to invigorate 
Russia's contacts with NATO, as was evident in his decision earlier 
this year to meet with NATO's secretary general over the objections of 
his military.
    If Putin turns out to be a strong leader, despite continuing 
doubts, the West could have greater confidence in his ability to cut 
deals and make them stick. That would be a major improvement over the 
last years of the Yeltsin era. Nevertheless, it would be a grave 
mistake to think that rapid progress can be made on many of the issues 
on the U.S.-Russian agenda: ABM modification/START-3, Russian-Iranian 
relations, Caspian pipelines, and so on. These are complex matters that 
would be difficult to resolve even with much greater mutual trust than 
now exists.

                              U.S. POLICY
    Despite all the uncertainties about Putin and his policies, the 
United States should seize the opportunity of a new Russian leadership 
to reengage Russia in an effort to reverse the deterioration in our 
relations. This is not the place to go into to detail on how to 
approach specific issues, but some guidelines are in order.
    The first task is to rebuild the trust that has been lost over the 
past few years, for that is indispensable to productive negotiation on 
strategic issues and non-proliferation concerns that lie at the top of 
our agenda with Russia. We can begin to do this in part by talking in 
less grandiose terms and more realistically about the quality of our 
relations with Russia. The Administration's earlier talk of ``strategic 
partnership'' created expectations in Russia that we were never 
prepared to meet, and our failure to meet them led many Russians to 
ascribe to us pernicious motives we never in fact entertained. Now is 
the time for a little honesty. Our relationship with Russia is not yet 
one of genuine partnership, nor is it likely to become one over the 
next few years. Building such a relationship is a worthy goal, but, for 
the moment, we have a mixed relationship of cooperation, competition, 
and neglect, depending on the specific issue. There is nothing unusual 
or wrong with this. This is the type of relations we enjoy with most 
countries around the world. We need to say this publicly.
    In line with the real nature of our relations, we should make clear 
in our public pronouncements and private conversations that the 
intensity of our engagement with Russia will vary from issue to issue. 
On some issues, such as the strategic nuclear balance and proliferation 
of weapons of mass destruction, Russia will be the central focus of our 
policy. On others, such as European security, it will be one among a 
number of key players, but not necessarily the most important. On still 
others, such as security in East Asia, it will play a lesser role. On a 
range of global economic matters, it will be a secondary consideration 
at best. We also need to make clear that the continuation of Russia's 
brutal war in Chechnya will put strict limits on how far relations can 
improve.
    In addition, as we seek to reengage with Russia, we need to 
appreciate Russia's limited capacity to engage, both material and 
psychological. For this reason, it is imperative that the United States 
set realistic goals that take into account Russia's dwindling resources 
and focus on issues where Russia remains relevant. That will produce 
the best chances for the success that is necessary to build public 
support in the United States for continued constructive engagement. On 
issues of economic and domestic political development, we should resist 
demanding too much of Russia, as we have in the past. We need to 
appreciate the full complexity of the challenges facing Russia as it 
moves away from its Soviet past and recognize that our own 
understanding of the processes underway there is far from complete. 
Instead of pressing programs on Russians, we should let them take the 
initiative, while underscoring our readiness to help if the programs 
and policies they adopt make political and economic sense.
    Finally, in engaging Russia, we should remain a respectful distance 
from the Russian leadership, in sharp contrast to the Clinton 
Administration's approach with Yeltsin. Intense relations will only 
warp our perceptions of developments in Russia, in particular by 
blinding us to the downsides, as happened with the Administration's 
embrace of Yeltsin. At the same time, we need to build a broader 
network of contacts, in Moscow and in the regions, both to obtain a 
fuller and more balanced picture of the situation in Russia and to help 
rebuild the reservoir of goodwill that has been drained over the last 
seven years.
    Such engagement might lack the high drama of the past few years, 
and it might sound pedestrian to some. But only by lowering our 
expectations, by understanding where our interests overlap and conflict 
with Russia's, and by acknowledging the limits on our ability to 
cooperate, in short, only through greater realism, can we hope to put 
back on track relations with a country that will continue to be vital 
to our own security and well-being well into the future.

    Senator Smith. Thank you.
    Dr. McFaul, I think we will go to you next and then to 
questions.

   STATEMENT OF MICHAEL A. MC FAUL, PH.D., SENIOR ASSOCIATE, 
   CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, WASHINGTON, DC

    Dr. McFaul. Thank you, Mr. Chairman. Thank you for inviting 
me here today.
    I have a longer statement which I have submitted to the 
committee and I am just going to summarize my remarks by 
answering three questions: First, why did Putin win? Second, 
what does it mean for Russian democracy? And third, what does 
it mean for the United States?
    First, why did Putin win? Obviously, the jump start for his 
electoral success was his actions regarding the war in 
Chechnya. There is no question about it that the rise of Mr. 
Putin in popularity coincides and correlates very directly in 
the fall of 1999 with his actions in Chechnya.
    However, there are two caveats to this argument and I think 
it is important for us to realize this. First, when you look at 
the opinion polls--and I conducted opinion polls that I myself 
commissioned, and wrote; these are not done by other agencies--
there are two very striking things. They were responding to the 
feeling of insecurity in Russia and not necessarily responding 
to the imperial design of Russia in Chechnya.
    In fact, in our polls in December of 2,000 Putin 
supporters, that is those who plan to support Mr. Putin in the 
Presidential election, 32 percent said we should support the 
inclusion of Chechnya into Russia at whatever cost, but 28 
percent of Putin supporters, not Russians in general, said we 
should let Chechnya be a free and independent state.
    That is a very striking conclusion in terms of what we 
traditionally think about who Mr. Putin is. I think therefore 
you have to look beyond the question of Chechnya to answer the 
question of why did Putin win.
    The second factor is what I would call an optimistic vote 
for the future. This is very clear in the studies we have done 
both in the focus groups and opinion polls. That is, everybody 
saw in Mr. Putin something they wanted. So in the laundry list, 
for instance the day before the election, sitting listening to 
18 to 35 year olds in Moscow say, why are you planning to vote 
for Putin, they listed everything from his conduct of the war 
in Chechnya, somebody else argued that I am voting for Mr. 
Putin because I want him to eliminate all people of non-Russian 
ethnicity from Moscow--that was a statement by a guy that 
looked like he should be on MTV, by the way; a very frightening 
thought in my opinion.
    But then a third a young woman said: I support Mr. Putin 
because I want my grandmother to have a higher pension. A 
fourth young lady said: I support Mr. Putin because I want 
increased spending for education. The list could go on.
    That is, this is a vote for the future and, precisely 
because Putin did not lay down his set of policies--and if I 
were running his campaign I would have recommended the same--
everybody could see in this candidate what they wanted to see. 
It was a vote for the future, not for the past. In particular, 
his youth was very important to his supporters in determining 
whether they should support him or not.
    A third factor, often forgotten in our analysis here was 
the incredibly weak opposition that Mr. Putin faced in this 
election. We oftentimes forget this, but I think when the 
historians write the story of Russian politics in the 1990's 
they will not focus on the brilliance of the Kremlin, they will 
focus on the ineptitude of the opposition, and first and 
foremost the Communist Party.
    A fourth factor was the early vote. Mr. Putin owes Mr. 
Yeltsin a lot by having pushed up the electoral calendar to 
March instead of June, because Mr. Putin fell from 55 million 
people--now I am quoting their own campaign headquarters 
numbers--who were going to support him in January to 40 million 
in March. Think about that. I am looking at two men who have 
run for office many a time. Imagine losing 15 million 
supporters in 3 months. Had that election happened in June we 
might have seen a very different kind of outcome.
    That leads me to the final non-factor, which was the 
campaign. Much has been made of the television control from Mr. 
Putin, the fact that he won because of that. That was part of 
it, but I would just remind you that in controlling the state 
television during that period he managed to lose 15 million 
voters in 3 months. Not much of a campaign in my estimation.
    Likewise, Mr. Yavlinsky, a man I know and admire and 
believe ran a brilliant campaign this time, and by the way who 
spent millions of dollars in this campaign, violating their own 
campaign laws, had no restrictions this time for the first time 
ever in running, managed not to get beyond his traditional core 
electorate of about 6 percent. And Zyuganov, who spent no money 
on television, managed to do 4 percentage points better in a 3-
month period.
    So I think it is a very complicated situation looking at 
why Mr. Putin won, and not just the war in Chechnya. This 
election was about, in my opinion, the end of the Russian 
revolution of the 1990's and a vote for something new and 
different, and Mr. Putin, everybody can see that in him.
    What does this election mean for democracy? I think it is 
one step forward and two steps backward. There is no doubt 
about it that this was not an even playing field. There is no 
doubt about it that parties did not play the role that they 
should in consolidated democracies in forming and structuring 
the vote. It troubles me that Mr. Putin became popular because 
of this anti-democratic action in Chechnya.
    The fact that he comes from the KGB also troubles me. I 
have spent a good 15 years of my life defending and helping 
people who are trying to escape the control of the KGB, and 
even at times during the 1990's I myself have been hassled by 
that organization. So it is hard for me to look at somebody 
from their ranks becoming President of Russia and think that 
this is a good sign for democracy.
    Finally, as I have written before, there is no doubt about 
it--and here I agree with my colleague Tom Graham--that Mr. 
Putin has not demonstrated that he is committed to democracy. 
On the contrary, he has demonstrated that he is indifferent to 
democracy. I would just remind you of the list. Look at what he 
has done in Chechnya, look at how he treated Mr. Babitsky and 
his attitude toward the press in general. Look at the 
statements they have floated regarding changing the electoral 
law in a way that would be anti-party in my opinion. He has 
floated the idea of appointing Governors rather than electing 
them and has even talked about extending the Presidential term.
    Now, any one of those initiatives in and of itself would 
not be a step backward for democracy, but combined I think they 
demonstrate that democracy is something that when it is 
convenient he will abide by it. I think personally, having met 
him in the early nineties, he is too modern of a guy to want to 
go back to some kind of authoritarian regime. He kind of knows 
in his heart that democracy is part of being modern. And yet he 
has other priorities, state-building and market reform, that he 
thinks are more important, and therefore he is willing to 
sacrifice democratic practices in the name of these other 
agenda items.
    But democracy in all countries is not made just by one man 
at the top or cannot be determined the trajectory of that 
democracy just by one vote. I think it is premature to suggest 
today, as many in this town now do, that Russia is not a 
democracy. On the contrary, I think we have to ask the 
question, well, compared to what?
    Let me remind you, the elections were held according to the 
constitution. Let me remind you that two-thirds of the 
electorate showed up. Let me also emphasize here, this is a 
very sophisticated electorate, a very literate society. Our 
opinion polls and focus groups show quite strikingly, in my 
opinion, that they knew what they were doing. They were not 
just lambs being led to vote because that is the way they do 
it. No, they made a decision to go vote.
    Now, compared to the United States, compared to Poland 
today, compared even to the early 1990's, Russia is not a 
democracy and the trajectory is in the wrong direction. But it 
would be wrong, I think, to argue that there are not democrats, 
democratic institutions, and people that espouse democratic 
values in Russia today.
    In other words, one of the things that I think is dangerous 
is to say there is no democracy in Russia, therefore there is 
nothing left to preserve or fight for. I think that would be a 
premature decision made in the midst of Russia's tumultuous 
transition, and we simply cannot do it today.
    First, elections are still consequential. If you do not 
believe that, I would advise you to invite the four Governors 
who lost last December and the dozens of Duma deputies that 
lost their seats and ask them what they think about elections. 
It was pretty consequential for their careers. Incumbency rates 
are much higher in the United States and the U.S. Senate than 
it is in the State Duma today. Elections for those losers are 
very consequential.
    Second, parties still exist. They are weak, but they are 
there and they need to be supported.
    Third, there are tens of thousands of non-governmental 
organizations. They are still there. They are weaker than they 
were 5 years ago, but they are still there and they are 
fighting.
    Fourth, there is still independent media in Russia, again 
weaker than they were 2 years ago but still fighting.
    Fifth, the most important thing I believe is the people of 
Russia. When asked point blank, do you think we should elect 
your leaders or have them appointed, two-thirds say they should 
be elected. When asked, do you think there should be one person 
on the ballot or two, 80 percent said that there should be two 
people on the ballot. That is, I think there is something worth 
fighting for in terms of Russian democracy.
    So finally, my third question, what does this mean for U.S. 
policy? I think we are heading to very difficult waters, quite 
frankly, because Putin is going to send us very mixed signals. 
I think he is going to be very positive on the economic side. 
To answer your question earlier, Senator Lugar, he has hired 
the best and the brightest. He has the Chicago School guys 
there. They are writing very pretty words. Words do not 
necessarily translate into policy, and maybe during questions 
we can talk about that, but in terms of the people he is 
leaning on for advice, they are in my opinion the right people. 
So I think we are going to see positive signs on that front.
    Second--we have already seen it--we are going to see 
positive signs on the arms control front and in general a kind 
of pragmatic approach to Western relations, not the emotional, 
erratic approach that we had with Mr. Yeltsin, the kind of love 
affair we had with him where sort of one day we are on, one day 
we are off. This is going to be a much more businesslike 
relationship with Mr. Putin.
    But third, we are going to see negative signs on democracy. 
Therefore the question before you and before U.S. policymakers 
in general is going to be how to--and here I totally agree with 
Dr. Brzezinski--have a discriminating policy, to react 
positively on the economic side and the arms control side and 
negatively when we see steps that are going away from 
democracy.
    Now, some think we should just take that trade. Some think 
we spent way too much time focusing on domestic politics in 
Russia; it was misguided, it was naive, it is none of our 
business, and it worsened the U.S.-Russian relationship, 
negative attitudes in Russia are a result of our democracy and 
economic assistance.
    I emphatically disagree with that approach to international 
relations and U.S. policy toward Russia in general. In fact, I 
would like to go back to the Reagan years and remind you of 
what Ronald Reagan said about U.S.-Soviet relations, because I 
think much of what he said and outlined as a strategy, is still 
relevant today. Because I do not believe that the state in 
Russia has made its transition to democracy fully, we therefore 
need to have state to state relations, but we also, as 
President Reagan said, need to continue to engage Russian 
society and to promote the development of human rights and 
democracy in that country.
    Let me remind you that every time President Reagan went to 
Russia he met with the leaders of the Soviet Union, but he also 
met with the human rights activists fighting for democracy. I 
think that needs to be our approach today. After all, the cold 
war did not end because of some brilliant arms control 
negotiators in Geneva finding a new solution to help end the 
cold war. The cold war ended because of regime change within 
the Soviet Union, and the cold war will begin again if the 
regime change goes in the opposite direction.
    So I think this makes it very clear, what we need to do. We 
need to react positively to economic reform issues and be in a 
reactive mode, not a prescribing mode, at this point. They know 
what they need to do on the economic side.
    But on democracy I think we need to be proactive. We need 
to be supporting Russian democrats, not withdrawing the 
support, as you have been doing in terms of our assistance 
program toward Russia in the last few years. This means 
standing by democrats in Russia symbolically. It means standing 
by these democratic organizations, both before the Senate when 
there are summits to say that we recognize these people as an 
integral part of our relationship with Russia--and to answer 
your question, Mr. Chairman, whether we should listen to Mr. 
Putin or to Mr. Kovalyov, my instincts are with Mr. Kovalyov, 
not with Mr. Putin.
    We need to raise awareness of abuses, as you have done over 
the years. I think we need to do much more of that, both anti-
semitism, on Chechnya, and in a whole wide range of other 
issues. We need to increase our democratic assistance, not 
decrease it.
    Here let me be very clear about what I mean. No money to 
the Russian state. The Russian state does not need our money. 
The Russian state has plenty of money today. It means small 
amounts of money to Russians, not Russia. We need to start 
being more discriminating about that and reach out to societal 
groups that are seeking to check the power of the Russian state 
and not deal so much with the state any more.
    Here I think this means small assistance, not big 
assistance, and first and foremost I think it means education, 
increase all of our educational programs, all of our exchange 
programs. I teach at Stanford University. I have several 
students from Russia and other Newly Independent States, and I 
can tell you 4 years of education at Stanford has radically 
changed the way they think about Russia. I think we need to do 
much, much more on that front.
    Finally, I just want to say one last thing. There are still 
democrats in Russia, with a small ``d'', not a big ``D'', 
fighting to make it a better place. They believe truly--I have 
just come back from Russia 2 weeks ago--that they believe that 
we are abandoning them now. They think on the one hand we want 
arms control and so we do not care about democracy any more. 
They think that the ``who lost Russia'' debate has now taken 
over, so they are getting flushed away, if you will, with all 
the other things that I think rightly should be changed.
    I think we have to refocus our attention on these people. 
As long as there is one democrat in Russia still standing, 
still fighting to make Russia a more democratic place, I think 
we should be standing next to them.
    Thank you very much.
    [The prepared statement of Dr. McFaul follows:]

              Prepared Statement of Dr. Michael A. McFaul

   ``RUSSIA'S 2000 PRESIDENTIAL ELECTIONS: IMPLICATIONS FOR RUSSIAN 
                 DEMOCRACY AND U.S.-RUSSIAN RELATIONS''
    In all democracies around the world, national elections generate 
important data about the condition of the political system and the 
concerns, hopes, and beliefs of society. In new democracies such as 
Russia, national elections are even more important as they provide 
crucial measures of democratic consolidation or the lack thereof.
    Russia's latest presidential election, completed on March 26, 2000, 
represented one step forward and two steps backward for Russian 
democracy. For the first time in Russia's history, power within the 
Kremlin changed hands through an electoral process. The election did 
occur and was conducted as prescribed by the constitution. More than 
two-thirds of the eligible voters participated, and they appeared to 
make informed choices between a range of candidates who offered 
alternative platforms, policies, and leadership styles. The differences 
between presidential candidates Vladimir Putin, Gennady Zyuganov, and 
Grigory Yavlinsky, were real and the Russian voter--judging by my own 
research using polls and focus groups--appeared to know the difference. 
\1\ At the same time, this election did not occur on a level playing 
field. Vladimir Putin enjoyed tremendous resources advantages that 
tainted the process. Although weak in some arenas, the Russian state 
still enjoys too much power regarding the electoral process, while 
societal organizations--political parties, civic organizations, trade 
unions, and independent business groups--remain too weak to shape the 
outcomes of elections.
    Does this recent election represent a fundamental turn away from 
democratic practices or a temporary setback for democratic 
consolidation in Russia? It is too early to tell. However, prematurely 
answering this question in either the affirmative or the negative will 
most certainly generate distortions of analysis and bad policy. Putin 
may turn out to be Russia's Milosevic. He may develop into a weak 
leader presiding over a feudal order, dominated by oligarchs and 
regional barons, in which the people have little say. But he may also 
lead Russia out of its chaotic, revolutionary, and anarchic recent past 
and into a more stable decade of economic growth and political 
stability. So far, he has provided mixed signals on which direction he 
wants to take Russia.
    During this uncertain time in Russia, the task before U.S. foreign 
policymakers is to remain true to our principles and defend our 
national security interests which, in my opinion, includes the 
development of democracy in Russia. Unfortunately, this will be a 
difficult task in the next few years since Russian leaders will 
continue to send mixed signals. To fully embrace Putin is foolhardy. To 
fully reject the new president of Russia is equally shortsighted. U.S. 
foreign policymakers must be prepared to respond to positive steps 
initiated from the Kremlin but also react against negative developments 
as they occur.
    To demonstrate why Russian democracy is alive but not well and then 
outline U.S. policy recommendations for addressing this situation 
within Russia, this testimony proceeds in four parts. Section one 
explains why Putin won. Section two suggests what Putin's electoral 
victory might mean for Russian policy. Section three discusses the 
implications of this recent electoral cycle for Russian democracy. 
Section four outlines a set of policy prescriptions for the United 
States that follow from the analysis of the first three sections of 
this testimony.
   
                         I. WHY PUTIN WON
    The first step in coming to grips with a post-Yeltsin Russia is to 
understand why Putin won the March 2000 presidential election. The 
election reveals much about the evolution of Russia's political system 
and the mood of Russian society.
    The simple story for why Putin won is the following. Putin was 
chosen by Yeltsin and his band of oligarchs as a loyal successor, who 
would (1) keep them out of jail, and (2) preserve the basic system of 
oligarchic capitalism, in which oligarchs make money not by producing 
goods and services sold for a profit in the market, but by stealing 
from the state. To get him elected, they had to provoke a war with 
Chechnya as a way to boost Putin's popularity. Some assert that this 
cabal even blew up apartment buildings in Moscow and elsewhere last 
fall, and murdered innocent Russian citizens as a way to bolster 
support for the war and Putin. The ``popular'' war, however, could only 
sustain Putin for so long. Therefore, Yeltsin resigned on December 31, 
1999 to allow the presidential election to happen in March instead of 
June. As acting president, Putin had at his disposal all the resources 
of the Russian state, which he wielded convincingly to run away with 
election victory.
    There is much truth to this simple account. Yet, to know the rest 
of the story, one has to question the genius of the Kremlin and the 
stupidity of the Chechens as well as bring others actors into the 
analysis, including first and foremost the voters and the other 
presidential candidates.

The Chechen War
    Why do we always think that the people in the Kremlin are so smart 
and everyone else in Russia is so dumb? In the summer of 1999, no one 
believed that a quick little war with the Chechens would be the formula 
to deliver electoral success the following year. On the contrary, when 
Yeltsin ordered the Russian military to respond to the Chechen 
incursion into Dagestan in August 1999, most electoral analysts in 
Russia thought that the counter offensive would result in another 
unpopular military debacle. If the entire event was staged to assist 
Putin's electoral prospects, then Shamil Basaev--the Chechen commander 
who lead the military intervention in Dagestan to free the people of 
Dagestan from Russian imperialism--must either be a traitor or a fool. 
Basaev, it should be remembered, is the same Chechen commander who 
managed to seize a Russian hospital in southern Russia in the August 
1995, killed hundreds of Russians citizens, and then escaped. His 
record in the field suggests that he is neither a traitor nor a fool.
    However, he did overestimate the anti-imperial sentiment in 
Dagestan and underestimate the resolve of the Russian state to respond. 
As Prime Minister and with the blessing of Boris Yeltsin, Putin acted 
decisively. Everyone who has discussed the Chechen war with Putin 
personally will tell you that Russia's new president expresses real 
passion about his resolve ``destroy the Chechen terrorists.'' For the 
first time since 1941, a military force invaded Russia last summer. To 
argue that the Russian military response to this incursion was 
motivated solely by electoral calculations, therefore, is inaccurate. 
Any responsible leader of any country would have responded in a similar 
way. Terrorist attacks on apartments buildings in Moscow and elsewhere 
shortly after the invasion heightened the feeling of a nation under 
siege within the Russian population. \2\ Society demanded a response 
from its leaders and Putin responded.
    What was different about this particular response was its 
``success'' or appearance of success. In the first Chechen war, Russian 
forces appeared to be losing the war right away, in part because they 
performed so miserably and in part because the rational for the war was 
not embraced by either the Russian army or the population as a whole. 
An independent media, lead by the national television network NTV, 
reported on military setbacks and continued to question the purposes of 
the war. After several months of fighting, a solid majority in Russia 
did not support the war. Compelled by electoral concerns, Yeltsin 
called for a cease-fire in April 1996 and then allowed his envoy, 
Aleksandr Lebed, to broker a temporary settlement with the Chechen 
government. The second war started under very different circumstances. 
First, the Russian military and the Russian people believed that the 
rationale for the war was self-defense. A majority of Russian citizens 
supported the counter offensive from the very beginning and have 
continued to support the invasion of Chechnya throughout the military 
campaign. Second, the Russian army used different tactics in this 
campaign relying on air power to a much greater extent than the first 
war. The complete demolition of Grozny is the gruesome result of this 
change in tactics. Third, the media coverage of the war within Russia 
has been much less critical of both the military tactics and the 
political rational. Over time, NTV has become more critical of the war 
aims and the means deployed, but only lately and not nearly to the same 
degree as in the last war. All other major media outlets firmly support 
the Kremlin's position.
    Consequently, this second Chechen war has been a popular war in 
Russia. Public support has remained steady at roughly 60 percent 
throughout the war and has not wavered, as many predicted, when Russian 
casualties increased. Without question, this popular support for the 
war translated into positive ratings for Putin as a political leader. 
Opinion polls conducted in the fall of 1999 demonstrated that people 
were most obliged to Putin for accepting responsibility for the 
security of the Russian people. He looked like a leader at the top who 
was taking charge during an uncertain, insecure time and then delivered 
on his promise to provide stability and security. By the end of 1999, 
he enjoyed an astonishing 72 percent approval rating. \3\

A Vote for the Future, not the Past
    Putin's decisive response to the sense of insecurity that prevailed 
in Russia in the fall is the reason why he initially rose in the poils. 
However, Putin's policy in Chechnya is not the only reason why Putin 
maintained a positive approval rating throughout the spring of this 
year. In fact, our polls of Russian voters in December 1999-January 
2000 showed that 28 percent of those planning to vote for Putin 
believed that Chechnya should be allowed to leave the Russian 
Federation, while roughly the same number of his supporters--35 
percent--believed that Russia should keep Chechnya at all costs. This 
distribution of opinions roughly reflects the distribution of opinions 
on this question among all Russians. \4\ Therefore, Putin's execution 
of the Chechen war is not the only reason why Russian voters supported 
him. Other factors--more psychological than material in nature--also 
came into play.
    First, Putin symbolized for voters the end of revolution. For the 
first several years of the last decade, Russian politics were polarized 
by the struggle between communists and anti-communists. Unlike the more 
successful transitions from communist rule in Poland or Hungary, the 
debate about communism as a political and economic system continued in 
Russia for many years after the Soviet collapse. A period of volatile 
and unpredictable politics resulted. In his last years of power, 
Yeltsin further fueled political instability by constantly changing 
prime ministers. Putin's coming to power signaled for many an end to 
this volatile period--the Thermidor of Russia's current revolution. His 
youth and energy also punctuated the end of an old and sick ruler at 
the top. The voters welcomed this generational change. In focus groups 
that I commissioned in December 1999 and March 2000, Russian voters 
uniformly stated that Putin's youth was a positive attribute.
    Second, Putin's lack of a record as a public leader allowed voters 
to believe anything they wanted about him. In focus groups that I 
commissioned on the eve of the March 2000, participants generated a 
long and diverse list of expectations they had about Russia's future 
under Putin's leadership. The list included everything from order in 
Chechnya, respect for Russia on the international stage, and a 
crackdown on crime to higher pensions, a better educational system, and 
more job opportunities for young people. In other words, supporters 
were casting their votes for Putin as a future leader, and were not 
supporting him for his past achievements, his ideological beliefs, or 
his policy positions. Putin and his campaign managers understood this 
mood in the Russian electorate and therefore deliberately refrained 
from articulating a program or set of policies before the election. To 
do so would have alienated a part of Putin's rather eclectic electoral 
base.
    This electoral motivation is radically different than what we 
witnessed among supporters of Yeltsin in 1996. In that election, voters 
knew exactly what they were getting with Yeltsin and had no illusions 
about a more promising future. Yeltsin won 54 percent of the vote in 
the second round of the 1996 election even though his approval rating 
was 29 percent at the time. In 1996, people were voting against 
communism, supporting the lesser of two evils. In 2000, Putin 
supporters have a much more positive assessment of their leaders and 
are much more optimistic about the future. They were more motivated by 
this emotional feeling about the future and less motivated by 
individual material interests, ideological beliefs, or party 
identification. For instance, when asked in a January 2000 poll, about 
their attitudes about Russia's political future, 41 percent of 
respondents believed that the new year would be an improvement over the 
last year, while only 9 percent believed that the political situation 
would worsen. Likewise, regarding the economic situation in the 
country, 39 percent believed that the economy would improve in 2000 
while only 12 percent believed that the economy would worsen. \5\ The 
last time that Russians were so optimistic about the future was the 
fall of 1991.
    Strikingly, Putin's support was national in scope and not 
influenced by age or even income level. He did just as well in rural 
areas as urban areas and won as many votes from poor as he captured 
from the rich. Amazingly, he won the most votes in 84 out of 89 
regions. Communist leader Gennady Zyuganov, his chief opponent, won in 
only 4 regions, while Aman Tuleev received the highest number of votes 
in the region where he is governor, Kemerovo Oblast. In contrast, 
Zyuganov placed first in 25 regions in the second round of the 1996 
presidential vote.

The Absence of an Effective Opposition
    In addition to Chechnya and this psychological yearning for a 
better future within the Russian electorate, a third important reason 
why Putin won was the weak competition he faced. Often forgotten in 
analyses of Russian politics, the real story of the 1990s is not how 
clever the Kremlin has been, but how ineffective the opponents of the 
Kremlin have performed. The Communist Party of the Russian Federation 
(CPRF) has continued to dominate the space of opposition parties in 
Russian electoral politics and yet this party has not generated new 
leaders or a new image. The contrast between the modern, Western-
oriented, and young leader of the left in Poland, Mr. Kwasniewski, and 
the traditional, anti-Western, and old leader of the left in Russia, 
Mr. Zyuganov, could not be more striking.
    Years ago, well before we had even heard of Vladimir Putin, all 
experts on Russian electoral dynamics knew that whoever emerged as the 
candidate of the ``party of power'' would win the 2000 election. The 
reasoning is simple when one remembers the solid and consistent 
electorate support for Zyuganov and Russia's two-ballot electoral 
system. Gennady Zyuganov, the head of the CPRF, was assured a second 
place showing and possibly a first place showing in the first round no 
matter who ran against him in this presidential election. His voters 
have consistently supported him and his party for the last decade. 
There was no reason to believe that they would not support him in this 
election. At the same time, polls also have showed for years that 
Zyuganov would lose to almost everyone in a run-off. The only 
presidential contender he could beat was Vladimir Zhirinovsky. 
Consequently, Putin and his associates were eager to see Zyuganov and 
the CPRF do well in the parliamentary vote to insure that he would 
participate in the presidential election.
    We also knew that Grigory Yavlinsky, the head of the liberal 
opposition in Russia and the party head of Yabloko, would run for 
president in 2000. Yet, no serious analyst ever believed that Yavlinsky 
stood a chance of getting into a second round. Like Zyuganov, Yavlinsky 
also has his loyal electorate, but his core of supporters has never 
exceeded more than 5 percent of the voting electorate.
    The only real question, then, was who would emerge from the so-
called party of power. Two years ago, Moscow mayor Yurii Luzhkov looked 
poised to assume this mantle. Then last year, former prime minister 
Yevgeny Primakov emerged as a more likely candidate, especially after 
the extremely unpopular Boris Yeltsin fired him as prime minister. 
Primakov's popularity soared and many regional leaders and part of the 
Moscow elite rallied to his cause. As a symbol of stability in a time 
of uncertainty, Primakov skyrocketed in the polls. Having navigated 
Russia out of a financial crisis that began in August 1998, Primakov 
earned a reputation as a pragmatist who would chart a slow, 
``centrist'' reform course somewhere between radical reform and 
communist restoration. He originally joined the Fatherland-All Russia 
electoral bloc as a means to jump-start his presidential bid and as a 
strategy for building parliamentary support for his presidency.
    These plans proved premature. In fact, Primakov's participation in 
the parliamentary election exacted real damage to his prospects as a 
presidential candidate. During the fall campaign, the Kremlin's media 
empire launched a full-scale negative campaign against Primakov and his 
bloc. With varying degrees of truth and evidence, the Kremlin's media 
accused the former prime minister of being a feeble invalid, a lackey 
of NATO, a Chechen sympathiser, a closet communist, and a destabilizing 
force in international affairs who had ordered the assassination 
attempt against Georgian president, Eduard Shevardnadze. This smear 
campaign, in combination with Putin's spectacular rise in popularity, 
helped to undermine popular support for Fatherland-All Russia. They won 
only 12 percent of the popular vote, while the Putin-endorsed Unity 
bloc won 24 percent.
    In effect, the parliamentary vote served as a presidential primary 
for the party of power. Primakov lost this primary and pulled out of 
the presidential race.
    With Primakov out of the race, there was never any question that 
Putin would win the presidential election. The only real question was 
whether Putin could win more than 50 percent the first round and avoid 
a run-off He did, capturing 52.9 percent of the vote in the first round 
compared to Zyuganov's 29.2 percent.

The Early Election
    The final critical factor to Putin's electoral success was the 
early date of the election. By resigning on December 31, 1999 and 
thereby moving the electoral calendar forward three months, Yeltsin 
delivered to Putin the most important campaign present of all. 
According to Putin's own advisors, his popularity peaked in mid-January 
when 55 million eligible voters were prepared to vote for him. On 
election day on March 26, 2000, only forty million voters cast their 
ballot for the acting president. In other words, Putin lost the support 
of five million voters every month between January and March. Putin 
campaign strategy of no campaign was only viable in a short-campaign 
season. If the vote had occurred in June, Putin most certainly would 
have faced a run-off.

The Insignfficance of the Campaign Itself
    This rapid decline in support suggests that the tremendous 
television coverage that Putin received during this period as acting 
president did not bolster his electoral prospects. Nor, however, did 
Yavlinsky's massive media campaign increase his electoral support. At 
the same time, Zyuganov devoted very few resources to television and 
yet managed to capture thirty percent of the electorate. In other 
words, there appeared to be little correlation between money and 
television time on the one hand and electoral performance on the other.

Winners and Losers
    Putin was the obvious winner of this election. As in all 
presidential systems, he will now serve for a fixed four-year term. The 
ebbs and flows of his popular approval rating will matter very little 
for the next three years. The fact that he won by only a few percentage 
points also will fade in importance over time.
    Putin's small margin of victory, however, does have a few immediate 
implications as well as other more intangible psychological effects. 
Because Putin just squeaked by in the first round, he and his team are 
much less likely to dissolve the Duma and call for new parliamentary 
elections anytime soon. In the wake of the strong showing for the pro-
Putin Unity bloc in the December 1999 vote and Putin's skyrocketing 
support earlier in the year, some of his allies, including the new 
leaders of the Unity bloc, had called for new elections for the Duma 
immediately after the presidential vote. They believed that Unity could 
win an even larger share of the parliamentary seats after Putin's 
election. Now, however, such a move is unlikely since most now believe 
that a new parliamentary vote would yield basically the same result as 
last December. This is a positive outcome, which will result in stable 
executive-legislative relations for the foreseeable future.
    Putin's small margin of victory is also likely to make him more 
cautious in taking steps against those who helped him win. Before the 
election, for instance, Putin's advisors spoke brashly about removing 
``difficult'' governors from office. With this smaller mandate, Putin 
is now less likely to move aggressively against regional leaders. He 
must tread especially lightly in those places where regional leaders 
probably falsified the results to help push Putin over the 50 percent 
threshold. If Putin strikes out against these regional leaders, they 
might be tempted to expose their falsification efforts, which in turn 
could call into question the legitimacy of the election results more 
generally. For the same reasons, Putin might now be more cautious about 
taking actions against the oligarchs, especially those that helped him 
win. He is also less likely to pursue constitutional amendments such as 
extending the presidential term to seven years. More generally, Putin 
does not start his first elected term with the same momentum that he 
would have had with a more decisive victory.
    Gennady Zyuganov and the CPRF must be satisfied with their 
performance in the first round, even if they were unable to force a 
second round. Citing the results of their own parallel vote count, CPRF 
officials claim that the result were falsified and that Putin did not 
win 50 percent in the first round. \6\ However, they have not pursued 
this issue vigorously. Many believe that they are not pursuing a court 
investigation of the election results because Zyuganov believes that 
the CPRF can cooperate with Putin in forming a coalition government. 
Communist leaders assert that Zyuganov's showing gives them a mandate 
to participate in the new government. On election night, Putin made 
very conciliatory comments about Zyuganov and the communists, 
reflecting that their strong showing demonstrates that many Russian 
citizens are dissatisfied with the status quo. Boris Yeltsin would have 
never made such a comment on election night.
    Putin, however, is not likely to include communists in major 
positions in his new government. He understands the importance of 
creating an ideologically unified team. At the same time, he is likely 
to continue to consult and cooperate with the communists on a whole 
range of issues where they hold similar positions. And this list is 
long, and includes continuing the war in Chechnya, greater support for 
the military industrial complex and intelligence services, and the 
building of a stronger state. More generally, Putin is much more of a 
nationalist than Yeltsin and therefore shares the worldview of many 
prominent CPRF leaders.
    For Zyuganov personally, his strong showing--five points above what 
the CPRF won just three months earlier in the parliamentary vote--
insures that he will remain the leader of the CPRF for the foreseeable 
future. The Kremlin had backed Aman Tuleev, hoping that the popular 
Siberian governor might win a large portion of the communist and 
protest vote and therefore weaken the lock of the CPRF on this part of 
the electorate. Outside of Kemerovo, however, support for Tuleev was 
minimal.
    Russia's liberals suffered a major setback in this presidential 
election. The Union of Right Forces (SPS)--a coalition of liberals 
headed by former prime ministers Sergei Kiryenko and Yegor Gaidar, 
former deputy prime ministers Anatoly Chubais and Boris Nemtsov, and a 
handful of other prominent figures such as Samara governor Konstantin 
Titov and businesswomen Irma Kakamada--emerge from the December 1999 
parliamentary vote with real momentum. To the surprise of everyone, 
they placed fourth in this election, winning 8.5 percent of the popular 
vote. Importantly, they surpassed the total of their rival, Yabloko, by 
new more than two percentage points. For many, their smashing electoral 
victory marked the rebirth of Russian liberalism. However, they then 
squandered this momentum by demonstrating indecision in the 
presidential election. SPS failed to endorse a presidential candidate, 
even though one of its founding members, Governor Titov, was on the 
ballot. Some, such as Kiryenko and Chubais, backed Putin while others 
wavered. In the end, SPS had no impact on the presidential vote.
    Yavlinsky, however, fared no better. In this presidential vote, 
Yavlinsky was flush with money. Without question, he spent more on his 
campaign than any other candidate. \7\ He also enjoyed access to all 
major television networks. He did endure some slanderous attacks from 
ORT, the largest television network, only days before the vote. \8\ 
But, few experts believed that these attacks had any effect. By most 
expert accounts (including my own), Yavlinsky also ran a very 
professional campaign, his best performance to date. And yet, despite 
an excellent and well-funded campaign, marginal harassment form the 
state authorities, and no real competitors for the liberal vote, 
Yavlinsky won only 5.8 percent of the vote, well below his 7.4 percent 
showing in 1996 showing and only a fraction above what his party 
garnered in the December 1999 parliamentary vote. This result was a 
major defeat for Yavlinsky personally and for Russian liberals as a 
whole.
    This election was also a setback for nationalist leaders and 
parties independent of the Kremlin. Zhirinovsky fared very poorly, 
winning a paltry 2.7 percent, and all the other nationalist hopefuls 
did not win more than one percent of the vote. This outcome is very 
different from 1996, when General Alexander Lebed won a strong double-
digit third place showing, which then allowed him to play a critical 
endorsement role for Yeltsin in the second round.
    In several respects, this first round of the 2000 vote resembled 
the second round of the 1996 vote. Third party candidates played a much 
smaller role in this last election. The biggest losers in this election 
were liberal and nationalist parties whose candidates performed so 
poorly that one has to wonder if they will be able to survive as 
political movements in Russia in the future.

                  II. IMPLICATIONS FOR RUSSIAN POLICY
    Because Putin ran an issue-free presidential campaign, we know very 
little about what he intends to do as president. Putin himself probably 
is still forming views on the thousands of issues that he must now 
address. This is not a man who spent decades preparing to become 
president. The first time he ran for political office, after all, was 
last month! At the same time, we do have some clues regarding his 
priorities.
    We know that Putin is committed to preserving Russia's territorial 
integrity. For years, many in the West have written about the 
fragmentation of power within the Russian Federation, the weakness of 
the center, and the possible disintegration of the Russian state 
altogether. These threats have been greatly exaggerated. Chechnya's 
desire for independence from Russia is the exception, not the rule, 
among Russia's other republics. No other republic or oblast has ever 
made a credible threat to leave the federation. Under Putin, we will 
witness attempts to strengthen the center's control over the regions.
    Regarding economic reform, Putin's initial signals have been clear 
and positive. Putin has invited a young team of economists many of whom 
formerly worked for former prime minister Yegor Gaidar to draft a 
comprehensive reform program. \9\ The new program covers all the right 
subjects, including tax reform, deregulation, social policy 
restructuring, and new bankruptcy procedures. Words are just words. It 
remains to be seen if Putin has the will and the political skill to 
execute these plans. \10\ At this early stage, however, there is little 
doubt among those liberal economists currently working for him that he 
intends to pursue radical market reforms.
    Regarding foreign policy, Putin's initial signals have been less 
clear, but still mostly positive. He does not speak fondly of multi-
polarity or use in the tired language of balance of power politics. 
Instead, he wants to make Russia a normal, Western power. His 
international heroes come not from the East or the South, but the West. 
\11\ In his short time in office, he has devoted particular attention 
to England. He appears to want to give a greater focus to Europe and 
place less emphasis on Russia's relations with the United States. Yet, 
even with the United States, Putin appears ready to cooperate on key 
issues such as Start II ratification, Start III negotiations, and 
modification of the ABM treaty. At the same time, Putin has emphasized 
the need to expand Russian arms exports, a new initiative that could 
include the transfer of nuclear technologies to countries such as Iran.
    The area in which Putin's views are most murky concerns democracy. 
Putin does not aspire to become a dictator. In words, he had pledged 
his loyalty to the constitution and has not supported (yet) calls for 
the creation of new authoritarian regime like Pinochet in Chile as a 
means for jumpstarting market reform. \12\ Yet, he is also not a 
passionate defender of democracy. In his first several months in 
office, Putin has demonstrated that he is willing to use the power of 
the state and ignore the democratic rights of society in the pursuit of 
his objectives. For Putin, the ends justify the means.
    In the realm of electoral politics, Putin and his allies wielded 
the power of the Russian state in ways that exacted considerable damage 
to democratic institutions. Putin and his allies created a party, 
Unity, out of thin air in October 1999, which then won nearly a quarter 
of the vote in December. State television incessantly promoted the new 
party and destroyed its opponents with a barrage of negative 
advertising never before seen in Russian politics. Putin then used 
national television to broadcast his anti-campaign campaign for the 
presidency.
    More gruesome has been Putin's indifference to the human rights of 
his own citizens in Chechnya. Russia has a right to defend its borders. 
Yet, the atrocious violations of human rights in the cause of defending 
Russia's borders reveals the low priority Putin assigns to democratic 
principles.
    Independent journalists and academics also have felt the power of 
the Russian state under Putin. Reporters such as Andrei Babitsky from 
Radio Free Europe have suffered the consequences of reporting news from 
Chechnya that inconveniences the Kremlin. Commentators and columnists 
critical of Putin report that many newspapers are unwilling now to 
carry their articles. Self-censorship has returned to Russia.
    To date, many of Putin statements of political reform also sound 
anti-democratic. Putin advisers speak openly about eliminating 
proportional representation from the Duma electoral law, a revision 
that would practically eliminate all pro-democratic political parties 
in Russia. Putin and his aides also have expressed support for the 
highly anti-democratic idea of appointing rather than electing 
governors. Putin has even hinted that he would like to extend the term 
of the Russian president to seven years, instead of four. Individually, 
none of these innovations would spell the end of democracy. In 
combination, however, they could recreate a system dominated by a 
single ``party of power,'' i.e., the Kremlin.
    Despite all of these ominous signs, it would be wrong to conclude 
that Putin is an ``anti-democrat.'' The Russian president is simply too 
modern and too Western-oriented to believe in dictatorship. Rather, 
Putin is indifferent to democratic principles and practices, believing 
perhaps that Russia might have to sacrifice democracy in the short run 
to achieve ``more important'' economic and state building goals. He 
will continue to allow for an independent press, elections, and 
individual liberties just as long as they do not come in conflict with 
his agenda of securing Russia's borders, strengthening the Russian 
state, and promoting market reform. But what happens, however, when 
democracy does become inconvenient for him?

                III. IMPLICATIONS FOR RUSSIAN DEMOCRACY
    The rise or fall of democracy in Russia does not depend solely on 
Putin's view about democracy. If the shape of the political system in 
Russia depended exclusively on Putin's preferences, then the polity 
could not be considered a democracy. Many in the West and Russia now 
make this assertion. It has become fashionable to assert that Russia is 
not a democracy. The rise of Putin is the latest confirming evidence. 
Some assert that Russia has never been a democracy. The tens of 
thousands of people who took to the streets throughout Russia a decade 
ago did not have any impact on the way decisions get made in Russia. 
Instead, contemporary Russia is compared at best to the late Soviet 
period in which a small group people at the top decide who will be 
president, who will be governor, or in short, who will make all 
political decisions. Others have even likened contemporary Russia to 
feudal Europe, a system in which a handful of princes--now called 
oligarchs and regional barons--decide all, while the peasants and serfs 
decided nothing.
    Such historical analogies to Russia's past, however, are 
dangerously distorting. They suggest that no change in Russia has 
occurred in the last decade or the last four hundred years. These 
arguments imply cultural continuity in Russia; Russian leaders are 
authoritarian and Russia people support them because Russians leaders 
and Russian society have always supported dictatorship. This line of 
argument also suggests that there is no threat to Russian democracy 
today, because there is no democracy to be threatened.
    To be sure, Russian democracy is weak and unconsolidated. Russia is 
not a liberal democracy. Pluralist institutions of interest 
intermediation are weak, mass-based interest groups are marginal, and 
institutions that could help to redress this imbalance--such as 
parliament, the party system, and the judiciary--lack strength and 
independence. The absence of these democracy-supporting institutions 
means that Russia's democracy is more fragile than a liberal democracy. 
In addition, a deeper attribute of democratic stability--a normative 
commitment to the democratic process by both the elite and society--is 
still not apparent in Russia. Although all major political actors in 
Russia recognize elections as ``the only game in town'' and behave 
accordingly, anti-democratic attitudes still linger in Russian elite 
circles and society as a whole. \13\ Finally, the rise of a leader with 
Putin's background and the process by which he was elected are not 
positive signs for democratic consolidation. No one who fought for the 
destruction of the Soviet police state can be happy that a former KGB 
officer has now become the president of Russia.
    Yet, when assessing Russian democracy and its prospects, the real 
question is compared to what? Compared to American democracy today, 
Russian democracy has a long way to go. Compared to Polish democracy 
today, Russian democracy is way behind. Yet, compared to other states 
that emerged from the Soviet Union, Russia does appear to have made 
progress in building a democratic political order. The degree of 
freedom of speech in Russia towers above Uzbekistan; the consequences 
of elections in Russia are much greater than in Kazakhstan. Even when 
contemporary Russia is compared to its own past, be it Soviet communism 
or tsarist absolutism, the current system is vastly more democratic. 
Peasants did not vote, did not read independent newspapers, and did not 
travel freely. Nor did Soviet citizens. Princes were not removed from 
power by the ballot box as were four out of nine regional leaders and 
hundreds of Duma deputies in the December 1999 election. The next time 
you hear someone argue that elections in Russia do not matter, ask one 
of these electoral losers if they agree. Moreover, let us not forget 
that two-thirds of an extremely educated population opted to 
participate in these elections of parliament and president. If 
elections were meaningless, then why did these people bother to show 
up?
    The more interesting question is not whether Russia is a democracy 
or not, but rather to ask what is the trajectory for the future. 
Putin's victory and the process of that victory are not positive steps. 
Yet, it would be premature to generalize about the long-term future of 
Russian democracy from this one election. The same party can stay in 
power for decades in established democracies. Only time will tell if 
Putin's electoral is the beginning of the creation of one-party state 
or just a rather accidental consequence of a popular war, hopes of the 
future, and a weak opposition. At this period in Russia's history, the 
Russian people actually want a leader with a strong hand who promises 
to build a stronger state. Such desires are common after years of 
revolutionary turmoil. Those who claim that this election was 
undemocratic must demonstrate that the demos--the people--were 
prevented from voting into office someone more desirable for the 
majority. The demand for some other kind of candidate does not appear 
to be robust, and most certainly did not constitute a majority among 
Russian voters.

             IV. IMPLICATIONS FOR U.S. POLICY TOWARD RUSSIA
    The Putin era will constitute a very difficult period for U.S. 
policymakers. Putin's policies and actions will be neither all good nor 
all bad. For instance, he may proceed with economic reform, cooperate 
on arms control issues, but do little to crack down on corruption or 
defend democratic principles. How to respond to such mixed signals will 
present a major challenge to U.S. policymakers. There are no more good-
guys and bad-guys, or communists and anti-communists, but only shades 
of gray in Russia today.
    In developing a new strategy to deal with the Putin era--and a new 
strategy is necessary--the fundamental principles of U.S. policy 
towards the Soviet Union and then Russian must be remembered. For 
several decades, the United States was right to oppose Soviet 
imperialism, communist economics, and totalitarian politics. At 
different moments during the Cold War, U.S. politicians and diplomats 
argued for detente with Soviet dictators and a lack of attention on 
internal maters within the Soviet Union for the sake of allegedly more 
importance strategic goals such as arms control and ``stability'' in 
U.S.-Soviet relations. In hindsight, we can now see that this strategy 
was wrong. Clever diplomacy, greater respect for Soviet concerns, or 
arms control did not end the Cold War. Rather, it was the collapse of 
communism and the emergence of democracy within the Soviet Union and 
then Russia that suspended the international rivalry between the United 
States and the Soviet Union. It will be regime change in the opposite 
direction in Russia that will rekindle the Russian threat to the United 
States.
    Consequently, the new refrain in Washington today about the need to 
focus less on Russia's internal problems and more on state-to-state 
relations is dangerous and shortsighted. U.S. policymakers must 
continue to see the development of a market economy and a political 
democracy in Russia as U.S. national security interests. If Russian 
democracy fails and a nationalist dictatorship eventually consolidates, 
we will go back to spending trillions on defense to deter this rogue 
state with thousands of nuclear weapons. After all, remember why we are 
about to spend billions on National Missile Defense to defend our 
borders against North Korea and other rogues states. The threat from 
North Korea is not only military capacity. Rather, the threat comes 
from the intentions of an erratic regime not answerable to its people. 
In fact, every country in the world that now threatens U.S. national 
security interests is an authoritarian regime. If Russia reverts back 
to dictatorship, the United States is much more likely to drift towards 
confrontation with this great nation. And no one will remember who 
ratified the Start II treaty or who negotiated the modifications to the 
ABM treaty.
    How to remain engaged in Russia's reforms, however, must be 
rethought. Policies that worked in the past may not always work or be 
necessary in the future.

Economic reform
    Regarding economic reform, the United States should refrain from 
prescribing formulas, and instead react to positive proposals 
originating from Russia. A decade ago, technical assistance for 
economic reform was critical and played a positive role in educating 
Russia's new leader about economic principles. That era, however, is 
over. Russian economists know what they must do regarding structural 
reforms. If they provide a program for tackling the issues of 
structural reform, then Western lending institutions such as the IMF 
and World Bank should respond in accordance with the level of 
commitment discerned in Moscow. Above all else, however, the IMF, the 
World Bank or any other Western agency should not deliver economic 
assistance based on political or strategic motivations. Rather, these 
institutions should focus exclusively on what they know best, economic 
reform. The converse is equally true. Sound economic assistance 
programs--if truly sound--should not be held captive to the ebbs and 
flows of the politics of U.S.-Russian relations. The IMF works best 
when it is acting like an independent bank--i.e., like the Federal 
Reserve--and works least effectively when it acts like another 
political arm of the U.S. government.
    In return for more autonomy over decisions of when and how much to 
lend to Russia, the IMF and World Bank must make their decisionmaking 
processes more transparent. Greater openness will expose IMF and World 
Bank decisions to greater scrutiny, which can only improve the quality 
of decisions. Equally important, greater transparency will allow more 
Russians to understand and therefore engage in influencing the IMF-
Russian relationship. More information about the execution of an IMF 
program should also be made available to the public as a way to help 
counter corruption.
    Regarding U.S. bilateral economic aid to Russia, all economic 
assistance to the Russian state, including humanitarian assistance 
should be cut. These programs are either unnecessary or fuel 
corruption. Only programs that assist Russian society directly should 
be continued. To their credit, the Clinton Administration gradually has 
reoriented U.S. assistance from the Russian state to Russian society, 
but a full shift in focus now needs to be completed.

Political Reform
    Regarding democracy, the United States must become even more 
engaged in defending and assisting those individuals and organizations 
within Russia willing to fight for democratic institutions and values. 
Unlike the debate about the market, the debate about democracy in 
Russia is not over. As long as advocates for democracy within Russia 
still remain active and engaged in this battle of Russian democracy, we 
must continue to support their struggle with ideas, educational 
opportunities, moral support, and technical assistance.
    Because Putin wants cooperation with the West, the Clinton 
Administration now has an opportunity to help the cause of Russian 
democracy. Rather than shower Putin with faint praise about his 
businesslike demeanor as a way to secure the Russian president's 
support for arms control treaties, Clinton and his foreign policy team 
need to stress that the preservation of democracy in Russia is a 
precondition for cooperation. In parallel to a more constructive 
engagement of Putin regarding issues of human rights, the United States 
also needs to give greater support to Russian societal forces still 
fighting to preserve Russian democracy.
    This means empowering democratic activists in Russia through high-
level meetings with U.S. officials. President Ronald Reagan never went 
to the Soviet Union to meet with Soviet leaders without holding 
separate meetings with societal leaders. This practice must return. 
Independent journalists, human rights activists, civic organizers, 
business leaders, and trade unions officials must be engaged, 
celebrated, and defended when the Russian state abuses their rights. 
The Clinton Administration was right to push for greater access to 
Chechnya by international agencies such as the International Red Cross. 
Likewise, the move by the Parliamentary Assembly of the Council of 
Europe (PACE) to suspend Russia's voting rights in the council should 
be applauded. The West must maintain the same standards when 
investigating abuses of human rights conducted by Chechen fighters. 
This campaign for ending the war in Chechnya and investigating human 
rights violations on all sides must be sustained and cannot be forsaken 
for short-term gains in arms control negotiations.
    A renewed strategy for defending Russian democracy also means 
increasing, not decreasing as currently planned, assistance programs 
designed to strengthen the independent media, trade unions, political 
parties, civil society and the rule of law. Heroes in the struggle 
against Soviet communism such as Sergei Kovalev have warned that Russia 
democrats are facing their most difficult test in the coming years. Why 
are we abandoning these people now? Critics say that U.S. assistance to 
these agents of democratic change taint their image within Russia. I 
say that we should let Russia's democrats make decisions about their 
image at home. Let them decide the level of engagement they desire to 
pursue with their Western counterparts.
    In the political realm, all of U.S. assistance should be 
transferred exclusively through non-governmental actors. This means 
continuing lending to small businesses, and supporting the development 
of political parties, civic organizations, business associations, and 
trade unions--not state bureaucrats. This means supporting public 
interest law organizations and providing seed money for a Russian Civil 
Liberties Union rather than giving money to Russian law enforcement 
officials. State reform in Russia will not be generated from within the 
state. Rather, state institutions will reform only when there are 
strong societal groups in place that can pressure them to do so. 
Likewise, the comparative empirical record of the post-communist 
transitions demonstrates that the best way to fight corruption is 
through greater democracy--i.e., greater empowerment of society as a 
control on state activities--not greater resources for state police 
agencies. In fact, after a decade of post-communist transition, one of 
the most surprising outcomes is the positive correlation between 
democracy and economic growth. \14\
    More generally, programs that increase contacts between Russians 
and Americans must be expanded. America's most effective tool in 
promoting markets and democracy is the example of the United States 
itself. The more Russians are exposed to this model, the better. This 
exposure can come from military-to-military programs, sister city 
programs, or business-to-business meetings, but educational programs 
especially for young Russians must be emphasized above all else. Tens 
of thousands of Russian students, not dozens, should be enrolled in 
American universities. Mass civic education projects within Russia, 
with a focus on expanding internet access, also should be expanded. 
While hundreds of business schools have sprouted throughout Russia, 
there are virtually no public policy schools and only a handful of 
organizations dedicated to the dissemination of materials on democracy. 
Because the concept of democracy in Russia has been discredited by all 
the nasty policies undertaken in its name, those seeking to resurrect 
democratic ideals must be fully supported. More generally, any program 
that increases the flow of information about entrepreneurial and civic 
ventures throughout Russia should be encouraged. The demonstration 
effect of a profitable small business in Perm will mean much more to a 
future entrepreneur in Novosibirsk than an example of success from the 
Silicon Valley. In providing this kind of assistance to Russian 
society, organizations that provide small amounts of support to many 
rather than large amounts to a few should take the lead in dispersing 
American assistance in Russia.

Keeping Our Eye on the Big Picture
    Ten years from now, Putin's rise to power may look like the initial 
stage of authoritarian restoration in Russia and the beginning of 
sustained conflict in U.S.-Russian relations. The Yeltsin-Clinton era, 
despite all the setbacks, may seem like the good old days of U.S.-
Russian cooperation. If this scenario unfolds, the U.S. policy of 
engagement with Russia will look in retrospect like a naive project 
pursued by romantic liberals who did not understand the world in which 
they lived.
    It is equally plausible, however, to assume that ten years from now 
our current debate about Russian dictatorship and failed U.S. policy 
towards Russia will look like a premature conclusion made by an 
impatient and exhausted American foreign policy community. Over the 
long-term, Russia's size, natural resources, educated population, and 
strategic location in Europe and Asia suggest that Russia will play a 
major role in the international system. Whether Russia makes this re-
entry as a member of the intemational society of core Western states, 
or as a rogue state seeking to threaten this international society 
depends in large measure on the kinds of institutions that shape 
economic and political activity within Russia in the years to come. 
Several years after the collapse of the Soviet Union, there is still a 
chance that Russia will consolidate a market economy and a democratic 
polity, and that Russia therefore will join rather than threaten the 
community of democratic and capitalist states. That this window of 
opportunity is still open; considering all that Russia has endured over 
the last decade, is surprising.
    Now, therefore, is not the time to declare Russia lost and abandon 
the strategy of engagement. Though resurgent, anti-Western forces in 
Russia do not enjoy a monopoly over policymaking in either domestic or 
international affairs. Disagreements between Russian and American 
diplomats over Iraq, Iran, or Serbia, past failures regarding aid 
programs, the threat of authoritarian rule within Russia, or the 
growing ill will between Russians and Americans more generally are not 
arguments for abandoning engagement, but evidence for the need to 
reorient and reinvigorate the policy.

                                 NOTES
    \1\ Together with Professor Timothy Colton from Harvard University, 
I am midstream in a major research project on the Russian 1999 
parliamentary elections and the 2000 presidential elections. This 
research project includes several national surveys of voters, focus 
groups conducted before and after both elections, and qualitative 
analyses of all the major campaigns. The National Science Foundation, 
the National Council for East and Eurasian Studies, and Mott 
Foundation, and the Carnegie Corporation of New York have provided 
generous financial assistance to support this research.
    \2\ To this day, we still do not know who was responsible for these 
terrorist attacks. What is clear, however, is that the vast majority of 
the Russian people believe--whether rightly or wrongly--that the 
Chechens executed these attacks.
    \3\ Agenstvo Regional'nykli Politcheskikh Issledovanii (ARPI), 
Regional'nyi Sotsiologicheskii Monitoring, No 49 (December 10-12, 1999) 
p. 39. The sample size of this survey was 3,000 respondents in 52 
subjects of the Russian Federation.
    \4\ More specifically, our pre-Duma election survey conducted in 
late November and early December of 1600 Russian citizens asked a 
general opinion question about Chechnya. Respondents were given a five-
point scale, where 1 was labeled ``Keep Chechnya at all costs'' and 5 
was labeled ``Allow Chechnya to leave the Russian Federation.'' The 
distribution of altitudes was: 33 percent position 1 (keep at all 
costs), 12 percent position 2, 14 percent position 3, 6 percent 
position 4, and 27 percent position 5 (let them leave); another 8 
percent were undecided. In our post-Duma poll, conducted in late 
December and early January, we asked about voting intention in the 
presidential election. This is the fascinating thing. Of respondents 
who intended to vote for Putin, 35 percent favored position 1 on 
Chechnya (i.e., keep at all costs), 13 percent favored position 2, 12 
percent favored position 3, 5 percent position 4, and 28 percent 
position 5 (the most dovish position). Opinions on Chechnya among 
prospective Putin voters are within a few percentage points of the 
distribution of altitudes within the entire population. In other words, 
61 percent of Russians in the most hawkish category on the war intended 
to vote for Putin and 59 percent (the same!!) of Russians in the most 
dovish category intended to vote for Putin.
    \5\ Fond 11Obshchestvennoe mnenie,'' (FOM), Soobshcheniya Fonda 
``Obshchestvennoe mnenie,'' No. 001 (536), January 12, 2000, p. 30.
    \6\ ``Russia Communist say election results were rigged,'' Reuters, 
April 4, 2000.
    \7\ Of course, Putin enjoyed more time on television in his 
official capacity as president, but his campaign did not produce any 
television advertisements and refused to use the free national 
television airtime allotted to him as a candidate. Putin also did not 
participate in any presidential debates.
    \8\ ORT commentators asserted that Yavlinsky and his Yabloko were 
funded by German and Jewish organizations. They also showed clips of 
homosexuals announcing that they planned to vote Yavlinsky and 
intimated that Yavlinsky himself was gay.
    \9\ Under the direction of German Gref at the Strategy Center 
formed by Putin last year, this team of economists and lawyers in many 
ways represents the most liberal thinkers in Russia. Initially, Gref 
invited everyone to submit proposals to the Center. Over time however, 
a core group of former government officials from the Gaidar government 
have assumed primary responsibility for the drafting of key components 
of the new economic plans. The lists of specialists includes Vladimir 
Mau, Aleksei Ulukaev, Sergei Sinelnikov (all former Gaidar aides and 
deputies), Oleg Vyugin, Andrei Illarionov, Mikhail Dmitriev, and their 
chief mentor, Yevgenii Yasin.
    \10\ Some of these liberal economists currently working for the 
Putin team worry that expectations are too high right now. In a 
situation similar to 1992, people expect quick economic results. When 
they do not occur, radical economic reform ideas could be blamed and 
therefore discredited once again.
    \11\ See Ot Pervogo Litsa: razgovory s Vladinziroin Putinyin 
(Moscow: Vagrius Books, 2000).
    \12\ Most recently Pyotr Aven, president of Alfa bank, has urged 
Putin to pursue such a strategy. See Ian Traynor, ``Putin urged to 
apply the Pinochet stick,'' The Guardian, March 31, 2000.
    \14\ See Jean-Jacques Dethier, Hafez Ghanem, and Edda Zoli, ``Does 
Democracy Facilitate the Economic Transition? An Empirical Study of 
Central and Eastern Europe and the Former Soviet Union,'' unpublished 
manuscript, World Bank, June 1999; and chapter five of the Transition 
Report 1999: Ten Years of Transition (London: European Bank for 
Reconstruction and Development, 1999).

    Senator Smith. Thank you both very much.
    As evidence of our democratic bona fides, what you hear 
outside is a protest on PNTR.
    This has been excellent. You both have mentioned that Putin 
will probably seek accommodation with the West on arms control 
and economic relations, but what about its agenda on the near 
abroad? What do you see Russia doing with Belarus, Ukraine, and 
all of the Muslim states below it?
    Dr. Graham. Look, I think that the Russian Government, Mr. 
Putin himself, see this as something still of an extension of 
domestic politics in Russia. They are foreign, but not quite 
foreign. And Mr. Putin's goal, I think as shared broadly across 
the Russian political elite, is to try to both rebuild the 
Russian economy and at the same time extend its influence into 
the surrounding areas, the former Soviet Union. And obviously 
there is already an agreement to move toward something of a 
more confederate type of relationship with Belarus. I would 
expect that to continue, at least at the rhetorical level. 
There are going to be some difficult issues to work out in 
terms of monetary systems, fiscal systems, and so forth.
    Ukraine, the South Caucasus, Central Asia, I think you are 
going to try to see Mr. Putin put together what I call the more 
coherent Russian foreign policy that will increase Russian 
presence and pressure in those areas, using the oil and gas, 
the energy levers, as a way of redirecting some of--focusing 
the thinking of some leaders, particularly Mr. Kuchma in 
Ukraine.
    I think you are going to see similar things happening in 
the South Caucasus. Mr. Putin and the Russian political leaders 
are aware that successions are looming in most of the three, or 
two of the three trans-Caucasian states. They want to make sure 
that Russia's interests are taken into account. I think you 
will see a similar thing in Central Asia.
    But this is going to be a real focal point of Russian 
foreign policy. The key issue will be in fact whether Putin is 
able to discipline the policy, foreign policy machine in 
Moscow, and then also all those large enterprises, energy in 
particular enterprises, that have major interests in the former 
Soviet Union.
    Dr. McFaul. Let me just add two things. First, I think we 
are going to see a turning inward in general in Russia under 
Mr. Putin. I do not think he sees himself and his role in 
Russia right now to play a large international role. Unlike Mr. 
Yeltsin, who took these kind of meetings, the G-7 or the G-8, 
whatever we call it now, very seriously in terms of his 
international status, I do not think that is going to be the 
case with Mr. Putin.
    Second, I think he is going to be pragmatic in these 
relationships. I do not see, quite frankly, any support in any 
sector of society in Russia for the recreation of the Soviet 
Union or imperial design on the Newly Independent States.
    What worries me is the third observation, which is that I 
think we tend to overestimate Mr. Putin's control over the 
army, over the FSB, and all sorts of areas. Let me just give 
you one example anecdotally. I know that myself and other 
academics in Russia and journalists in Russia have experienced 
more monitoring from the FSB in the last year and a half. I do 
not think that was a directive from Mr. Putin. On the contrary, 
I think the lower level guys who are doing this saw a guy like 
Mr. Putin at the top and said: Oh, now we have carte blanche, 
now we have got the green light to do whatever we want; we can 
go out and hassle these academics, right.
    Similarly, I worry about that in the Caucasus, and I think 
Georgia might be a flash point in that regard. That is, should 
the war escalate, should there be some chasing of Chechen 
rebels into Georgia, and some commander wanting to do good, he 
thinks, by his chief commanding officer in Moscow decides to go 
in. That might not be a directive from Mr. Putin, but I think 
the consequences for us would be very serious. That is the kind 
of thing that I worry about, especially in Georgia today.
    Senator Smith. I wonder if--you talked about corruption and 
some of the tolerance for it ongoing. It just seems to me that 
will continue to be a cancer in the Russian Government and the 
Russian life if ultimately there are not some laws that the new 
generation that Dr. Brzezinski talked about can utilize to 
effect some change in that.
    Or is this just so embedded, so ingrained, that it cannot 
change? Do you see Putin implementing laws, criminal laws that 
will ultimately provide a vehicle, a mechanism, to root this 
out?
    Dr. Graham. Let me just say that--and we have had hearings 
on this before--this corruption problem is massive. It in fact 
defines the way the political system operates. It is this 
intertwining of power and property in the public and private 
sphere in Russia. That is not something that emerged in the 
past decade. It has been an historic attribute of the Russian 
state.
    Dealing with that, separating the government from the 
business community, is going to take a long time. It cannot be 
done overnight. Now, Mr. Putin and the Duma may pass some 
legislation that would provide a basis for dealing with 
corruption, call for more transparency. The real problem is 
that of implementation. Even if you are Mr. Putin and you want 
to go after this, how do you go after it, the corruption, in a 
way that looks equitable, that does not appear to be your 
settling scores with your political opponents?
    You can go after Mr. Bherezovsky. That would be wildly 
popular in Russia today. But that is only a single figure. If 
you try to go after some of the other oligarchs, where do you 
stop? Is Mr. Chubais on your list? Is Mr. Chernomyrdin on your 
list? Is Mr. Baradin, Putin's earlier employer, on your list?
    How do you fashion this in a way that looks like the 
motives really are dealing with corruption and not a political 
settling of scores? So I think in the short run this is very 
difficult to do and I would question whether Mr. Putin has the 
political vision and the political skill in order to be able to 
conduct that type of policy.
    I think as you look out over the longer term, particularly 
at a new generation of entrepreneurs that are arising in 
Russia, that are looking not only toward a domestic market, 
which is still important for them, maybe their first priority, 
but also want to be accepted as major capitalists on the global 
arena, that they are going to see that different standards of 
behavior are required, a different type of discipline is 
required. That is ultimately I think going to create the 
pressure groups inside Russia to begin to build an independent 
judiciary, to pass the appropriate laws, and gradually deal 
with what is a pervasive corruption problem.
    What we can do to help on this really is encourage Russia's 
integration into the global economy, to bring these businessmen 
out into an environment that will compel them to deal in a 
different way if they are going to succeed.
    Dr. McFaul. If I could add just two comments. First of all, 
Russia is right in the middle of the post-Soviet countries in 
terms of level of corruption, which is to say that this is a 
post-Communist phenomenon, not a Russian phenomenon.
    Second, there is a very positive correlation within now the 
post-Communist world--and now I am talking about the entire 
post-Communist world--between low levels of corruption and 
democracy. In fact, it is a very striking correlation, Poland 
being one of the best, Uzbekhistan, Tajikistan being on the low 
side. I mention that because I think there is a misconception 
oftentimes in this city and most certainly in Moscow about how 
to deal with corruption. The idea is we need better laws and 
more policemen, right? Implementation, as Tom Graham just said.
    That is part of it, but that is only part of it. It is also 
stronger civil society, stronger democracy. Let me give you one 
example from our own experience. We had an election, 
Presidential election, in 1996. There were some allegations of 
corruption, as you recall, people doing things they should not 
have been doing, people taking money from people they should 
not have, right.
    Why do we know that? We know it because of two things. We 
knew it because of an independent media and we knew it because 
there is an opposition party, in this case the Republican 
Party, that had an interest in exposing that corruption and had 
the power to do so. It was not because of the LAPD, it was not 
because we hired a bunch of new guys to go around and to crack 
down on the oligarchs. It was because of transparency, in short 
because of democracy.
    So I think when you are thinking of solutions for fighting 
corruption in Russia we need to be much more creative about 
things like expanding Internet access to NGO's, supporting an 
NGO. A very courageous man, Dimitri Vaseley, let me tell you 
about him. He used to run the Federal Security and Exchange 
Commission in Russia and resigned when there was just simply 
too much corruption, reprivatization, illegal seizing of assets 
in a St. Petersburg factory. He has now set up a 
nongovernmental organization which is trying to disseminate 
information about minority investor shareholder rights.
    That is the kind of person you need to support, not the MVD 
or the FSB, the kind of Putin solutions. That to me scares me. 
That will just lead to more corruption, not less.
    Senator Smith. I think it is a wonderful distinction you 
have made between standing with Russians and not with Russia 
per se, and that there is a real difference and we need to be 
more discriminating in how we help and where we help and whom 
we help.
    So gentlemen, our time is spent. I thank you both for the 
great contributions you have made to our understanding on this 
committee today about this very important issue, and hopefully 
this hearing has been listened to by our friends in Russia and 
lessons will be learned by them as well, because I think we all 
look forward to a day when there is more, not less, contact and 
better, not worse, relations.
    So we thank you. I am going to leave open the record for 
questions that colleagues of mine may have for the 
administration or any of our witnesses today. For that, we 
thank you.
    Dr. Graham. Thank you.
    Dr. McFaul. Thank you.
    Senator Smith. We are adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
